<html>
<title> - H.R. 408, H.R. 532 and H.R. 1289</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
                   H.R. 408, H.R. 532 and H.R. 1289

=======================================================================

                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                         Tuesday, July 15, 2003

                               __________

                           Serial No. 108-40

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov








                        U.S. GOVERNMENT PRINTING OFFICE
88-287                         wASHINGTON  : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
Randy Neugebauer, Texas

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                
      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

               GEORGE P. RADANOVICH, California, Chairman
     DONNA M. CHRISTENSEN, Virgin Islands, Ranking Democrat Member

Elton Gallegly, California           Dale E. Kildee, Michigan
John J. Duncan, Jr., Tennessee       Ron Kind, Wisconsin
Wayne T. Gilchrest, Maryland         Tom Udall, New Mexico
Barbara Cubin, Wyoming               Mark Udall, Colorado
Walter B. Jones, Jr., North          Anibal Acevedo-Vila, Puerto Rico
    Carolina                         Raul M. Grijalva, Arizona
Chris Cannon, Utah                   Dennis A. Cardoza, California
John E. Peterson, Pennsylvania       Madeleine Z. Bordallo, Guam
Jim Gibbons, Nevada                  Nick J. Rahall II, West Virginia, 
Mark E. Souder, Indiana                  ex officio
Rob Bishop, Utah
Richard W. Pombo, California, ex 
    officio





                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on July 15, 2003....................................     1

Statement of Members:
    Camp, Hon. Dave, a Representative in Congress from the State 
      of Michigan................................................     7
        Prepared statement on H.R. 408...........................    12
    Cardoza, Hon. Dennis A., a Representative in Congress from 
      the State of California....................................    15
    Christensen, Hon. Donna M., a Delegate in Congress from the 
      Virgin Islands.............................................     2
    Kildee, Hon. Dale, a Representative in Congress from the 
      State of Michigan..........................................    13
    Lantos, Hon. Tom, a Representative in Congress from the State 
      of California..............................................     3
        Prepared statement on H.R. 532...........................     4
    Radanovich, Hon. George P., a Representative in Congress from 
      the State of California....................................     1
        Prepared statement of....................................     2
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana...........................................    13

Statement of Witnesses:
    Pauli, Bill, President, California Farm Bureau Federation, 
      Sacramento, California.....................................    31
        Prepared statement on H.R. 532...........................    32
    Ridenour, Hon. James, Former Director, National Park Service, 
      Bloomington, Indiana.......................................    38
        Prepared statement on H.R. 408...........................    40
    Rust, Audrey C., President, Peninsula Open Space Trust, Menlo 
      Park, California...........................................    34
        Prepared statement on H.R. 532...........................    35
    Smith, P. Daniel, Special Assistant to the Director, 
      National Park Service, U.S. Department of the Interior.....    16
        Prepared statement on H.R. 408...........................    17
        Prepared statement on H.R. 532...........................    19
        Prepared statement on H.R. 1289..........................    21
    Tomlinson-Keasey, Dr. Carol, Chancellor, University of 
      California,--Merced, Merced, California....................    27
        Prepared statement on H.R. 1289..........................    29

Additional materials supplied:
    Friends of the Crystal River, Barbara Gilmore Weber, 
      President, Statement submitted for the record on H.R. 408..     7
    Olsen, Jack, Executive Administrator, San Mateo County Farm 
      Bureau, Statement submitted for the record.................    49


 LEGISLATIVE HEARING ON H.R. 408, TO PROVIDE FOR EXPANSION OF SLEEPING 
 BEAR DUNES NATIONAL LAKESHORE; H.R. 532, TO REVISE THE BOUNDARIES OF 
THE GOLDEN GATE NATIONAL RECREATION AREA IN THE STATE OF CALIFORNIA, TO 
    RESTORE AND EXTEND THE TERM OF THE ADVISORY COMMISSION FOR THE 
 RECREATION AREA, AND FOR OTHER PURPOSES; AND H.R. 1289, TO ESTABLISH 
 THE NATIONAL PARKS INSTITUTE AT THE UNIVERSITY OF CALIFORNIA, MERCED, 
                        AND FOR OTHER PURPOSES.

                              ----------                              


                         Tuesday, July 15, 2003

      Subcommittee on National Parks, Recreation, and Public Lands

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 1 p.m., in room 
1334, Longworth House Office Building, Hon. George Radanovich 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Radanovich, Christensen, Kildee, 
Cardoza and Souder.
    Mr. Radanovich. Good afternoon. The hearing will come to 
order.

 STATEMENT OF THE HON. GEORGE RADANOVICH, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    This is the Subcommittee on National Parks, Recreation and 
Public Lands. Our hearing today is on three bills: H.R. 408, 
H.R. 532, and H.R. 1289.
    Our first bill, H.R. 408, introduced by Congressman Dave 
Camp of Michigan, provides for the expansion of Sleeping Bear 
Dunes National Lakeshore in Michigan.
    Our second bill is H.R. 532, introduced by Congressman Tom 
Lantos of California, would revise the boundaries of the Golden 
Gate National Recreation Area in the State of California and 
restore and extend the term of the advisory commission for the 
recreation area. Our last bill, H.R. 1289, which I introduced, 
would establish the National Parks Institute at the University 
of California in Merced.
    Before turning my time over to Mrs. Christensen, I would 
ask unanimous consent that Mr. Camp and Mr. Lantos be permitted 
to sit on the dais following their statements. Without any 
objection, so order.
    In addition, I would like to also inform our witnesses 
today that the full Resources Committee is meeting at 2 o'clock 
to mark up a series of bills which may require this 
Subcommittee to recess if votes are called. So I would ask that 
all witnesses please keep to your 5-minute statements.
    I now turn to the Ranking Member of the Subcommittee, Mrs. 
Christensen from the Virgin Islands for any opening statement 
you may have, Donna.
    [The prepared statement of Mr. Radanovich follows:]

Statement of The Honorable George Radanovich, Chairman, Subcommittee on 
 National Parks, Recreation, and Public Lands, on H.R. 408, H.R. 532, 
                             and H.R. 1289

    Good afternoon. The hearing will come to order
    This afternoon, the Subcommittee on National Parks, Recreation, and 
Public Lands will receive testimony on three bills--H.R. 408, H.R. 532 
and H.R. 1289.
    Our first bill, H.R. 408, introduced by Congressman Dave Camp of 
Michigan, provides for the expansion of Sleeping Bear Dunes National 
Lakeshore in northern Michigan.
    Our second bill, H.R. 532, introduced by Congressman Tom Lantos of 
California, would revise the boundaries of the Golden Gate National 
Recreation Area in the State of California and restore and extend the 
term of the advisory commission for the recreation area.
    Our last bill, H.R. 1289, which I introduced, would establish the 
National Parks Institute at the University of California, Merced.
    Before turning the time over to Mrs. Christensen, I would ask 
unanimous consent that Mr. Camp and Mr. Lantos be permitted to sit on 
the dais following their statements. Without objection, so ordered. In 
addition, I would like inform our witnesses today that the Full 
Resources Committee is meeting at 2:00 to markup a series of bills, 
which may require this Subcommittee to recess if votes are called, so I 
would ask that all witnesses please keep their statements to 5 minutes.
    I now turn to the Ranking Member, Mrs. Christensen for any opening 
statement she may have.
                                 ______
                                 

   STATEMENT OF THE HON. DONNA M. CHRISTENSEN, A DELEGATE IN 
                CONGRESS FROM THE VIRGIN ISLANDS

    Mrs. Christensen. Thank you, Mr. Chairman.
    As you have indicated, we are going to hear testimony on 
three unrelated bills. The first one, H.R. 408, sponsored by 
Representative Camp and cosponsored by Representative Stupak, 
would authorize the acquisition of more than 100 acres for 
eventual addition to Sleeping Bear Dunes National Lakeshore in 
Michigan. Apparently the owner of the property is actively 
pursuing commercial development on this site, which could have 
very negative impacts on the lakeshore.
    While we support this legislation, there are several 
technical issues that need to be explored. We look forward to 
discussing this beautiful part of Michigan and exploring the 
details of this legislation with our witnesses.
    The next bill, H.R. 532, introduced by our colleague who 
has already joined us, Mr. Lantos, expands the boundaries of 
the Golden Gate National Recreation Area in California, and 
includes the reauthorization of the park's advisory commission. 
It is my understanding that the park additions made by this 
bill include important scenic and open space lands and the park 
advisory commission has served an important role with the park 
since its establishment in 1972.
    Our last bill, H.R. 1289, is the legislation that you, Mr. 
Chairman, introduced, along with Representative Cardoza, to 
establish a National Park Institute at the University of 
California at Merced. I would like to have one of those in my 
district, Mr. Chairman.
    Mr. Radanovich. You had a hearing last year.
    Mrs. Christensen. Yes. I would like to welcome our 
colleagues and the witnesses to this hearing and look forward 
to learning more about the three measures before us today.
    Mr. Radanovich. Thank you, Mrs. Christensen.
    Mr. Radanovich. Mr. Kildee, do you have any opening 
statement?
    Mr. Kildee. Has Mr. Camp been here yet?
    Mr. Radanovich. He is on deck. We are going to take Mr. 
Lantos' testimony and go on with the Park Service if Mr. Camp 
is not here yet, but we will make sure he gives his opening 
statement once he gets here.
    Mr. Kildee. I will wait until that time.
    Mr. Radanovich. Thank you, sir.
    Mr. Radanovich. Congressman Lantos, welcome to the 
Subcommittee. I know you are here to discuss H.R. 532, which is 
to revise the boundaries of the Golden Gate National Recreation 
Area in the State of California.
    Please begin. Thank you for being here.

STATEMENT OF THE HON. TOM LANTOS, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Lantos. Thank you very much, Mr. Chairman, Ms. 
Christensen, and my good friend, Mr. Kildee.
    Mr. Chairman, I want to thank you for your most gracious 
invitation to sit with the Subcommittee, which I would be 
delighted to do. I am managing on the floor the State 
Department authorization bill on the Democratic side, so if you 
will allow me, I will excuse myself after I make my 
presentation.
    Mr. Chairman, H.R. 532, the Rancho Corral de Tierra Golden 
Gate National Recreation Area Boundary Adjustment Act, is a 
truly extraordinary piece of legislation which is intended to 
protect and to preserve a unique national treasure and 
landscape. We have an historic opportunity, Mr. Chairman, to 
make a valuable addition to the National Park System at a 
fraction of the cost to the Federal Government.
    GGNRA, the Golden Gate National Recreation Area, is a 
national treasure. It provides open space and recreation in the 
midst of a densely populated urban area, and it is one of our 
Nation's most heavily used national parks. My bill adjusts the 
boundary of GGNRA to include approximately 5,000 acres of 
adjacent existing parkland along the Pacific Ocean. The upper 
parcels of lands offer spectacular vistas, sweeping coastal and 
bay views, and stunning headland scenery. Inclusion of these 
lands, Mr. Chairman, protects the important habitats of several 
species of rare or endangered plants and animals. It 
reauthorizes GGNRA and Point Reyes National Seashore Citizens 
Advisory Commission for an additional 10 years.
    Our legislation was considered during the 107th Congress 
and was passed by both houses. However, because of issues 
unrelated to GGNRA, the bill was not cleared for final action. 
In the current Congress, Mr. Chairman and members, Senators 
Dianne Feinstein's and Barbara Boxer's companion legislation 
passed the Senate by unanimous consent on April 3, 2003. My 
House cosponsors include every single member of the Northern 
California delegation, Ms. Pelosi, Mr. George Miller, Ms. 
Eshoo, Ms. Lee, Mrs. Tauscher, Mr. Honda, Mr. Thompson, Mr. 
Stark, Ms. Lofgren and Ms. Woolsey.
    This, Mr. Chairman, is a private-public partnership. The 
Peninsula Open Space Trust, POST, represented today by its 
president, who has done incredibly valuable things for 
generations to come, Audrey Rust, purchased the 4,262 acre 
Rancho Corral de Tierra for $29.75 million to protect the 
property from development. Commitments from public and private 
sources will provide nearly half of the amount. In addition to 
State funds, the California Department of Transportation will 
donate approximately 800 acres to our new park.
    The National Park Service understandably is concerned that 
new acquisitions detract from their ability to deal with the 
enormous backlog of deferred maintenance, and I am very 
sympathetic to this concern. But we are proposing a remarkable 
addition at less than half the market value of this incredibly 
beautiful piece of land. I believe that our Park Service needs 
to balance its priorities so our great natural parks may be 
maintained and enhanced so that tremendous opportunities like 
the one we are presenting are not lost.
    Mr. Chairman, the Golden Gate Natural Recreation Area and 
Point Reyes National Seashore Citizens Advisory Commission has 
adopted a resolution endorsing this addition. So has the San 
Mateo County Board of Supervisors, the county in which the area 
is located. Without this much-needed protection, we will miss 
this golden opportunity for the Golden Gate. I strongly urge 
all of my distinguished colleagues to support this legislation.
    Thank you, Mr. Chairman.
    Mr. Radanovich. Thank you, Mr. Lantos.
    [The prepared statement of Mr. Lantos follows:]

  Statement of The Honorable Tom Lantos, a Representative in Congress 
                      from the State of California

    Thank you Mr. Chairman and Mrs. Christensen and members of the 
Subcommittee for the opportunity to be here today to support my 
legislation the Rancho Corral de Tierra Golden Gate National Recreation 
Area (GGNRA) Boundary Adjustment Act, H.R. 532.
    This is truly an extraordinary piece of legislation intended to 
protect and preserve an extraordinary landscape. I am thrilled to be 
here today because I believe we have before us a wonderful opportunity 
to make a valuable addition to the National Park System at a fraction 
of the cost to the Federal Government.
    Mr. Chairman, the GGNRA is a true national treasure. It provides 
open space and recreation in the midst of a densely populated urban 
area, and it is one of our nation's most heavily used national parks. 
H.R. 532 would adjust the boundary of the GGNRA to permit the inclusion 
of lands directly adjacent to existing parkland as well as nearby lands 
along the Pacific Ocean. The upper parcels of land offer spectacular 
vistas, sweeping coastal and bay views and stunning headland scenery. 
Inclusion of these lands would also protect the important habitats of 
several species of rare or endangered plants and animals.
    This legislation was considered during the 107th Congress and was 
passed by both Houses. However, because of issues unrelated to the 
GGNRA the bill was not cleared for final action. In this Congress, 
Senators Dianne Feinstein and Barbara Boxer sponsored companion 
legislation that passed in the Senate by unanimous consent on April 3, 
2003. I am very proud that in the House of Representatives this 
legislation is cosponsored by my very distinguished Bay Area 
colleagues, Ms. Pelosi, Mr. George Miller of California, Ms. Eshoo, Ms. 
Lee, Mrs. Tauscher, Mr. Honda, Mr. Thompson of California, Mr. Stark, 
Ms. Lofgren, and Ms. Woolsey.
    The new additions to the GGNRA will be accessible to more than 6 
million people who live within a one hour's drive of the park and will 
provide national park programs and experiences to millions of national 
and international visitors. The dramatic ascent of Montara Mountain 
from the sea, 2000 feet in just over 1 mile, is a spectacular sight not 
duplicated anywhere else in the Park and in few other places on the 
California coast.
    We can accomplish permanent protection of these lands through a 
tripartite partnership involving Federal, state and private 
contributions. I urge the Subcommittee to seize this unique, exciting 
and significant opportunity for a public-private-partnership to 
preserve open space. Without this much-needed protection, I have no 
doubt that this pristine wilderness will soon be lost to housing 
projects on land that is not suited for housing. And in the not too 
distant future we will not only lose this great natural resource but 
undoubtedly the Federal Government will be called upon to pay for the 
much greater public costs of flood, fire, and landslides resulting from 
development of this fragile ecosystem.
Three Important New Additions to GGNRA
    The Rancho Corral de Tierra Golden Gate National Recreation Area 
Boundary Adjustment Act of 2003 contains three important additions to 
the GGNRA. The largest parcel, the Rancho Corral de Tierra addition is 
one of the largest undeveloped parcels on the San Mateo coast. It is 
comprised of the four main peaks of Montara Mountain rising 2,000 feet 
from sea level. This 4,262-acre property includes a panorama of amazing 
views, important watersheds, miles of public trails, and an incredible 
array of wildlife and plant life. The Rancho Corral de Tierra shares 
three miles of boundary with the GGNRA. Its relatively untouched upper 
elevations preserve rare habitat for several threatened and endangered 
plant and animal species. The property also contains four important 
coastal watersheds, which provide riparian corridors for steel head 
trout, coho salmon and other aquatic species.
    H.R. 532 also authorizes the National Park Service to include 
within the GGNRA the Martini Creek-Devil's Slide Bypass right-of-way, 
which was purchased by the California Department of Transportation 
(Caltrans) to build a highway across Montara Mountain. When San Mateo 
voters overwhelmingly decided in a local referendum in favor of 
building the Devil's Slide tunnel rather than the Martini Creek Bypass, 
this right-of-way became obsolete. This property covers approximately 
300 acres and divides the Rancho Corral de Tierra property and connects 
the proposed additions to the GGNRA to existing state parkland, 
creating a seamless belt of parkland. Once the GGNRA boundary is 
adjusted through this legislation to include this right-of-way, 
Caltrans will be able and intends to donate the property to the NPS.
    H.R. 532 also authorizes the NPS to include within the GGNRA 
boundaries approximately 500 acres of land along the Devil's Slide 
section of Coastal Highway 1, the scenic highway that winds its way 
along the entire California coast. These properties will make a logical 
addition to the park by filling in gaps to adjacent and existing State 
and Federal parkland. Caltrans either already owns or will acquire 
these lands when it builds the Devil's Slide tunnel and will then 
donate these properties for open space use after the tunnel is built. 
It is not the intention of this legislation, Mr. Chairman, to interfere 
with Caltrans' responsibility for building the tunnel at Devil's Slide. 
This legislation will simply make it possible for Caltrans or any other 
state or local agency to donate these properties to the National Park 
Service when the Devil's Slide tunnel is completed and when the 
National Park Service has determined that the acquisition of these 
lands is appropriate.
Private-Public Partnership
    Mr. Chairman, the Rancho Corral de Tierra Golden Gate National 
Recreation Area Boundary Adjustment Act provides the Federal Government 
a unique opportunity to place approximately 5,000 new acres of pristine 
land under permanent protection. The Peninsula Open Space Trust (POST) 
purchased the Rancho Corral de Tierra site for $29.75 million to save 
the site from development and to preserve this important natural area. 
POST is a local land conservancy trust in the San Francisco Bay Area 
and has a remarkable track record in working with and assisting the 
Federal Government with the protection of other important open space in 
the Bay Area. POST has offered to donate a significant amount towards 
the Federal acquisition of the Rancho Corral de Tierra property through 
private contributions. I am pleased that POST President Audrey Rust 
could be here today to testify on behalf of this bill.
    Under this legislation, the Rancho Corral de Tierra will be 
preserved through a tripartite partnership between the National Park 
Service, California State Parks and the Peninsula Open Space Trust. For 
the Rancho Corral de Tierra property, we will seek 50% of the 
acquisition from the Federal Government and 50% through state and 
private contributions. The other properties will be donated by 
Caltrans.
Strong Local Support
    H.R. 532 enjoys strong local support. The Golden Gate National 
Recreation Area and Point Reyes National Seashore Citizens Advisory 
Commission adopted a resolution endorsing this legislation and 
supporting the addition of these areas into the GGNRA after holding a 
public hearing and receiving public comment from local residents. The 
San Mateo County Board of Supervisors also passed a resolution 
supporting enactment of this legislation. The legislation also has the 
strong support of local environmental advocacy and preservation groups. 
The proposed additions were studied by POST in accordance with National 
Park Service criteria and in consultation with National Park Service 
staff. The study found that the three tracts of land meet the criteria 
for additions to units of the National Park Service. The study found 
that the properties will preserve significant natural, scenic and 
recreational resources that are equal to or are unparalleled in the 
Golden Gate National Recreation Area.
Reauthorizes Citizens Advisory Commission
    H.R. 532 will also reauthorize the Golden Gate National Recreation 
Area and Point Reyes National Seashore Citizens Advisory Commission for 
an additional 10 years. The Advisory Commission has been an invaluable 
resource for park management since its inception in 1972. It provides 
an important forum for the gathering and receipt of public input, 
public opinion and public comment and allows the park to maintain 
constructive and informal contacts with both the private sector and 
other Federal, state and local public agencies. The Advisory Commission 
aids in strengthening the spirit of cooperation between the National 
Park Service and the public, encourages private cooperation with other 
public agencies, and assists in developing and ensuring that the park's 
general management plan is implemented.
Concerns Raised
    Mr. Chairman, while this bill was passed in both Houses during the 
last Congress and has already been passed by the Senate in this 
Congress, two questions have come to my attention as we approached this 
hearing. The first is the question of agricultural leases within the 
park boundary. Approximately 300 acres of land within the proposed 
boundary expansion are currently leased for agricultural uses. Some 
concern has been raised about whether those leases will continue. I am 
pleased that NPS Director Mainella has responded directly to Senator 
Feinstein's inquiry on this question and indicates that current law 
allows landowners to reserve agricultural rights for 25 years or life 
and also allows the NPS to extend agricultural leases beyond the 25-
year period.
    The other question regarding park additions is their impact on the 
backlog of deferred maintenance by the National Park Service. I agree 
that the backlog of deferred maintenance is an important priority and 
should be addressed. However, I also believe that this priority should 
not exclude all other priorities particularly when we have an 
opportunity to make a valuable addition at a bargain rate. I urge the 
Subcommittee to join with the local and state partners to acquire this 
valuable property while we have the opportunity. To be sure an 
opportunity like this will not last long.
Conclusion
    Mr. Chairman, preserving our country's unique natural areas is one 
of our highest national priorities, and it is one of my highest 
priorities as a Member of Congress. We must preserve and protect these 
unique and rare areas for our children and grandchildren today or they 
will be lost forever. Adding these new lands to the GGNRA will provide 
greater recreational opportunities for the public to enjoy and will 
allow us to protect these fragile natural areas from encroaching 
development or other inappropriate uses which would destroy the scenic 
beauty and natural character of this key part of the California coast. 
The California coast is a true national treasure and with your help we 
can preserve it for the generations that follow us. I strongly urge 
your support of H.R.532, the Rancho Corral de Tierra Golden Gate 
National Recreation Area Boundary Adjustment Act of 2003.
    Thank you.
                                 ______
                                 
    Mr. Radanovich. The Subcommittee welcomes to testify on 
H.R. 408 Congressman David Camp from the State of Michigan. 
Dave, welcome to the Committee. Feel free to begin your 
testimony.

 STATEMENT OF THE HON. DAVE CAMP, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MICHIGAN

    Mr. Camp. Thank you, Mr. Chairman. I appreciate you holding 
this hearing today and I appreciate the Subcommittee's 
willingness to consider H.R. 408, which is a bill that I 
introduced in January that would provide for the expansion of 
the Sleeping Bear Dunes National Lakeshore in my district.
    This legislation represents really the culmination of years 
of debate on the issue of whether or how to include certain 
acreage into this part of the park system. I am pleased the 
former director of the National Park Service, Mr. Jim Ridenour, 
can be here with me to attest to the significant benefits that 
H.R. 408 will deliver to residents and tourists alike.
    There are two main points I would like to make today. One, 
the bill will help to protect a pristine, globally rare parcel 
of land from future development and enhance the scenic beauty 
of the lakeshore. Second, all interested parties, including the 
NPS, the current owners of the property, local environmental 
groups and the community, all support this legislation.
    I am pleased to share with the Subcommittee a statement of 
support submitted for the record by one of the local 
environmental groups, the Friends of the Crystal River, that 
have long been involved in attempts to resolve this previous 
land dispute. I would like to submit their statement for the 
record.
    Mr. Radanovich. There being no objection, so ordered.
    [The statement of the Friends of the Crystal River 
submitted for the record follows:]
                      FRIENDS OF THE CRYSTAL RIVER
                              p.o. box 123
                       glen arbor, michigan 49636

   Testimony of Friends of the Crystal River, Barbara Gilmore Weber, 
                         President, on H.R. 408

                             July 11, 2003

    Mr. Chairman, members of the Subcommittee on National Parks, 
Recreation and Public Lands, it is my great pleasure to offer this 
written support for H.R. 408.
    Friends of the Crystal River, a 750 member grassroots 501c3 
organization, was formed 17 years ago, in response to a threat of a 
golf course/residential development being constructed along the river. 
Our mission was clear. We would explore ways and means of preserving 
the natural, ecological, historic, recreational, aesthetic and 
educational values of the Crystal River and its adjacent lands. 
Expanding Sleeping Bear Dunes National Lakeshore boundaries to include 
the Crystal riverine land offered to the National Park for purchase by 
the Homestead Resort accomplishes our goal and benefits the resort. The 
Friends, with sheer joy, enthusiasm and relief, support H.R. 408.
    Friends, joined by other environmental groups, has truly struggled 
and fought diligently to have the Crystal preserved. Sierra Club, 
Michigan Environmental Council, Northern Michigan Environmental Action 
Council, Trout Unlimited, Michigan United Conservation Club, Friends of 
the Cedar River, National Wildlife Foundation, Lake Michigan 
Federation, Izaak Walton League, National Parks and Conservation, 
Michigan Land Use Institute and the Leelanau Conservancy have joined 
with us in our mission. Citizens, from nearly every state, as well as 
citizens living abroad have written to the Friends or to Sleeping Bear 
Dunes National Lakeshore urging the Park Service to purchase the 
Crystal River land that is presently for sale.
    It has been a long and circuitous journey to finally reach an 
agreement on the controversial land use. Friends group has been in 
Michigan's District, Appellate and Supreme Court with our contested 
case. The Federal Court placed our case under the jurisdiction of the 
Army Corps of Engineers. U.S. Fish and Wildlife evaluated the 
Homestead's proposed golf course/residential development and found a 
golf course to be an inappropriate use of the river land. Residential 
construction, within the confines of local and state permits, would be 
allowed. Last year, The Homestead Resort, publicly stated they would no 
longer consider constructing a golf course. Instead, other options 
would be investigated: The resort could build on the land, they could 
sell the property or they could exchange publicly owned park land for a 
portion of the Crystal River land. The last option met with a loud 
public outcry. Now, a rare opportunity is ours: The Homestead Resort 
has offered to sell this exquisite natural resource to the National 
Park Service. The land parcel contains an internationally and 
nationally rare dune and swale land formation. The Natural Features 
Inventory authored for the Michigan Department of Natural Resources 
(see below) describes the essence of the Crystal River. A picture of 
the property in question provides additional perspective (see above). 
Perhaps, a comment offered by a park visitor canoeing the river, best 
describes the Crystal; ``Look at this...you can see right down to the 
bottom of the river...I've never seen a river so crystal clear.''
    Thank you for allowing Friends of the Crystal River to offer our 
support for H.R. 408. We urge you to approve this legislation in a most 
timely manner. Including the Crystal River parcel within the park 
boundaries will be a wonderful gift to the citizens of the United 
States. In turn, the Crystal River will be professionally managed by 
the Park Service and preserved in perpetuity.

                        Respectfully submitted,

                    Barbara Gilmore Weber, President

                                 ______
                                 

                      Friends of the Crystal River
                  michigan natural features inventory
                             crystal river
                                   by
                        gary a. reese, ecologist
                                  and
                      michael r. penskar, botanist

                            February 8, 1989

INTRODUCTION
    The Michigan Natural Features Inventory (MNFI) maintains a 
comprehensive and continually updated database on all state occurrences 
of threatened and endangered plants and animals, as well as lands 
qualifying as natural areas. In addition to maintaining the database, 
the program surveys Federal, state and private lands for additional 
occurrences of these entities. MNFI is a join venture of The Nature 
Conservancy and the Michigan Department of Natural Resources (MDNR), 
under contract to the latter agency.
    In February, 1989, MNFI conducted a survey of the Crystal River 
basin in Glen Arbor Township, Leelanau County, Michigan. This survey 
included lands owned by both The Homestead and the National Park 
Service. This is the site of a proposed golf course and homesite 
development to which The Homestead has applied for a wetlands permit to 
the MDNR under provisions of the Goemaere-Anderson Wetland Protection 
Act, P.A. 203 (1979). This act calls for a review of ``the probable 
impact on recognized...ecological...values'' of proposed wetlands 
projects and a determination of ``whether the activity is in the public 
interest.'' To this end, the Michigan Natural Features Inventory wishes 
to have its findings on the ecological values of this project area 
considered along with other available evidence.
METHODS
    The Crystal River area was photointerpreted by the senior author 
from photos taken August 18, 1938 (USDA B&W BEA-3R-113 and 114), July 
26, 1952 (USDA B&W IR BEA-1K-67 and 68), June 19, 1978 (MDNR Color IR 
13-33-222 and 223), April 30, 1985 (MDNR Color 36-636 and 637), and 
June 15, 1987 (MDNR B&W IR 320- 19-104 and 105). Multiple imagery 
allowed for a more accurate determination of wetland/upland boundaries 
and provided information on past land use which was necessary for 
judging the natural area boundaries. These boundaries are shown on the 
accompanying maps titled ``Homestead Golf Course, Location and 
Generalized Vegetation/Topography'' and ``Homestead Golf Course, 
Natural Communities and Natural Area.''
    The presettlement vegetation of this site was determined from U.S. 
General Land Office survey records. A map entitled ``Homestead Golf 
Course, Presettlement Vegetation'' shows the locations and nature of 
the surveyor's observations in 1850.
    Accuracy of the interpretation was field checked on February S, 
1989. Peat depths were taken in each major palustrine plant community 
type and soil textures determined in the terrestrial types. Plant 
species composition (primarily of the woody vegetation) was determined 
for four major topographic zones: ridge, swale, river flats, and swamp. 
Tree ages were obtained by reading rings on recently cut stumps and 
increment cores from breast height on live trees. Diameter measurements 
were also taken to determine size-class distribution of the trees by 
species.
RESULTS
Site Character1zation
    The Crystal River area is characterized by conifer-dominated forest 
on glacial lakeplain representing an old lake embayment. Meandering 
through this area is the Crystal River (also known as Crystal Run). As 
this river approaches Lake Michigan, it meanders through swales lying 
between a repeating series of sand ridges. These sand ridges represent 
former beach ridges formed during the receding of higher lake levels 
immediately following glaciation. These ridges are most pronounced 
approximately one-half mile from the present Lake Michigan shoreline 
and can be easily viewed from along Highway M-22, near the junction 
with County Highway 675. Toward the southeast, these ridges become 
progressively less pronounced, eventually grading into an extensive 
cedar swamp. This combination of former dune and swale topography 
associated with a meandering river is unique to at least the Lower 
Peninsula of Michigan. Further study is needed to determine if a 
similar occurs in the Upper Peninsula.
    The dune ridges are comprised of medium to coarse sand and 
dominated by conifers in areas which have not had recent logging or 
clearing. The coniferous trees include northern white-cedar (Thuja 
occidentalis), white pine (Pinus strobus), balsam fir (Abies balsamea), 
hemlock (Tsuga canadensis), and tamarack (Larix laricina), listed in 
their relative order of dominance. Where white pine has been logged, or 
where human activities have disturbed the ground, hardwoods are common. 
These include white oak (Ouercus alba), trembling aspen (Populus 
tremuloides), sugar maple (Acer saccharum), red maple (A. rubrum), and 
paper birch (Betula papyrifera).
    The swales have organic soils (peat and muck) from 2.5 to over 4 
feet deep. In general, the less pronounced the topographic gradient 
between ridge and swale, the shallower the peat depth. The slopes 
between the ridges and swales tend to have a muck and sand mix. The 
swales are dominated by speckled alder (Alnus rugosa) and silky dogwood 
(Cornus amomum), with northern white-cedar, white pine, tamarack, sweet 
gale (Myrica gale), shrubby cinquefoil (Potentilla fruticosa), and 
Bebb's Willow (Salix bebbiana) as abundant. The latter three species 
tend to dominate in the more open swales. Where the swales open to the 
Crystal River, a floodplain shrub-herb community occurs. Swamp rose 
(Rosa palustris), speckled alder and sweet gale dominate, with other 
swale species as associates. The ground layer in this community is 
dominated by marsh fern (Thelypteris pa1ustris), blue-joint grass 
(calamagrostis canadensis), and marsh wild-timothy (Muhlenbergia 
glomerata).
    Approximately one-half mile southeast of M-22 and south of Co. Hwy. 
675, the ridge and swale topography becomes much less pronounced and 
has mostly organic soils. This swamp is dominated by northern white-
cedar with areas of hemlock, underlain by shallow peat over medium to 
coarse sand. Other important species in the swamp include hemlock, 
black spruce (Picea mariana), tamarack, balsam fir, and paper birch. 
Old stumps of white pine, many of which display fire scars, are found 
occasionally throughout the swamp, but few cedar stumps were noted. 
This is undoubtedly due to repeated windthrows in the swamp, which has 
prevented attainment of old-growth cedars since presettlement survey 
time. It must be emphasized that old-growth cedar does not imply large 
diameter trees. The size and structure of trees that currently dominate 
the swamp appear to be a good facsimile of the swamp forest that was 
extant prior to settlement of the area. The many wind throws observed 
during the site survey also indicate a disturbance regime similar to 
that mentioned and recorded by the early land surveyors.
    Size-class distribution with selected tree aging revealed a 
primarily second-growth nature of the forest communities. White pines 
present on the ridges range in size from 18 to 23.5'' diameter (at 
breast height) and are essentially equal to the stump diameter of the 
trees present when the site was initially logged (prior to the turn of 
the century). In general, good to excellent regeneration has occurred 
on ridges which have not received a second cutting in modern times. 
Northern white cedar on both the ridges and in the swales range from 4 
to 8 (up to 13'') diameter, representing 40 to 85 years old trees. 
Cedar and balsam fir (average 7'' diameter) have likely become more 
abundant following logging.
    Within the cedar swamp, northern white cedar is extremely dense, 
windthrown, and predominately even-aged with 7.8'' diameters. This 
corresponds closely to the presettlement character of the swamp. Since 
the present trees are approximately 65 years old, it is likely that the 
site was catastrophically windthrown in the 1920'5. Presettlement 
surveyors noted a similar wind thrown nature in 1850. White pine stumps 
within the swamp are approximately 24'' stump diameter, with only 
minor, local regeneration of white pine.
    The site was also examined for the presence of potential habitat 
for the Michigan monkey-flower, (Mimulus glabratus var. michiganensis 
(Pennell) Fassett), a taxon wholly endemic to Michigan and known to be 
extant at approximately 10 sites. Michigan monkey-flower, currently a 
candidate for Federal listing by the U.S. Fish and Wildlife Service 
(Category 2 candidate, Federal Register, Feb. 27, 1985), is known to 
occur on the shore of Glen Lake, and thus the potential exists for its 
occurrence in the immediate region. Its habitat is primarily springy 
seepages on forest edges, cedar swamps, and in small openings along 
streams and lakeshores. The presence of ice and a snow cover (although 
relatively shallow) prevented a reasonable assessment of the site for 
the presence of this specific habitat. However, since populations of 
this species are well-known to be associated with ancient or modern 
shorelines of the Great Lakes, the glacial topography of the area, as 
well as the natural community composition, suggest that potential 
habitat for this species does exist, but cannot be assessed until 
spring. Both the river corridor and cedar swamp areas should be closely 
examined by an experienced, knowledgeable botanist.
Natural Area Significance
    The identified natural area is comprised of two natural community 
types recognized by MNFI, a Wooded Dune and Swale Complex and a Rich 
Conifer Swamp. There is a total of forty occurrences of the Wooded Dune 
and Swale Complex in the Lower Peninsula and this community type has 
provisionally been ranked as ``rare'' by MNFI. Very few of these 
occurrences have been surveyed for natural area significance. However, 
it is the opinion of the authors, based on considerable field 
experience in Michigan and a cursory examination of historical aerial 
photos for each occurrence, that this community type has been heavily 
impacted by logging throughout the state and that few, if any, higher 
quality and less impacted examples than the Crystal River site exist. 
The Crystal River occurrence is slightly smaller than average in size, 
but is well recovered from early human disturbances (e.g., it has good 
to excellent conifer regeneration following historic logging, has 
attained essentially similar age structure to that present at logging, 
and has a tree species composition similar to that reported by land 
surveyors in 1850). Furthermore, it is unique among occurrences in the 
Lower Peninsula by virtue of its association with an exemplary aquatic 
feature, the Crystal River, which courses through some of the 
interdunal troughs. We consider this occurrence to be important for 
protection as a natural area under county or regional government 
jurisdiction. This occurrence is possibly significant for state or 
Federal Government jurisdiction pending further study of the type in 
Michigan.
    The Rich Conifer Swamp type is provisionally ranked between 
``rare'' and ``secure'' within Michigan, with comparatively more 
pristine or near pristine examples known than for the Wooded Dune and 
Swale Complex. The Crystal River occurrence of this community type is 
relatively undisturbed by humans, having had only local cutting of 
white pine (and possibly hemlock) at the turn of the century. There is 
no evidence of cedar cutting, probably because the swamp was severely 
windthrown. Present tree species composition and structure is like that 
reported in the 1850 land survey. Alone, the Rich Conifer Swamp is of 
significance as a natural area under county or regional jurisdiction.
    Upon additional study of Michigan's other Wooded Dune and Swale 
Complex occurrences, it is possible that this site could qualify as a 
Federal Research National Area.
                                 ______
                                 
    Mr. Camp. Mr. Chairman, this legislation is simple. H.R. 
408 would authorize the National Park Service to purchase 104 
acres of property now owned by a private resort community and 
include it within the boundaries of Sleeping Bear Dunes 
National Lakeshore. The history behind the bill, however, is 
complex and deserves some explanation. I think it is important 
to briefly share with the Subcommittee how we got to the point 
we are at now with the consideration of H.R. 408.
    In establishing Sleeping Bear Dunes National Lakeshore in 
1970, Congress gave the Park Service the authority to condemn 
privately owned land and include it within the park system, and 
that was a unique approach to that date. The lakeshore was 
created from roughly 1,600 tracts of privately owned land, and 
at the time the Federal Government indicated to the private 
property owners that the land would be protected for the public 
to enjoy.
    The Homestead is a privately owned resort community located 
in Glen Arbor, Michigan, in my district. The Homestead has been 
in Glen Arbor for more than 70 years, property owners for 
nearly than 30 years, and in the mid-1980's the Homestead 
purchased the property that is in question that fronts the 
Crystal River. The U.S. Fish and Wildlife Service describes 
this property as ``globally rare.''
    Since the purchase of the Crystal River property, the 
owners of the Homestead have sought to build a golf course and 
over 30 single-family homes. The resort's desire to build on 
this pristine acreage has caused great concern among a number 
of community residents and local environmental groups who 
oppose the development of this property.
    To resolve this dispute, the Homestead and the National 
Park Service began discussions to trade or exchange the 
environmentally sensitive riverfront property for acreage 
already included in the lakeshore. However, the only property 
that is available for exchange was previously privately owned 
lands that had been condemned. So residents and area 
environmental organizations rejected the idea of an exchange.
    Understandably, opponents of the land exchange argued it 
would unfairly give land from one private property owner to 
another. The idea of trading that land to be developed into a 
golf course and homes was not a policy local residents and 
environmental groups could endorse, and I agree with them.
    Finally, after much negotiation and compromise, a solution 
has been reached that aims to benefit all the stakeholders. The 
deal is embodied in H.R. 408, a bill I introduced with 
Representative Bart Stupak--a similar bill was introduced by 
him in the last Congress. He represented this area up until 
redistricting. H.R. 408 authorizes the Park Service to acquire 
104 acres of property currently owned by the Homestead Resort 
and include it within the boundaries of Sleeping Bear Dunes 
National Lakeshore. It stipulates the purchase of this land 
would be made on a willing seller basis. The stipulation was 
included intentionally to provide assurances to the Homestead 
that their property will not be taken or withheld from them for 
any reason without their express consent. The bill also 
prohibits the Park Service from acquiring the property by an 
exchange or swap.
    At present, there is an independent surveyor who has 
completed an appraisal of the property and the Park Service is 
currently reviewing his estimate. I don't have that for you 
today, but it is expected that a negotiated value of the lands 
between the Park Service and the Homestead will be determined 
by the end of this month. By that time the willing sellers, the 
owners of the Homestead, will ask the Park Service to purchase 
the property. I am hopeful that the Park Service will be 
provided the necessary budgetary allowances to buy the property 
and settle this longstanding dispute that has gone on for many, 
many years.
    But before we get to that final resolution that has alluded 
these stakeholders for years now, H.R. 408 needs the support of 
this Subcommittee, and I urge you to support this measure. I 
appreciate your willingness to consider the merits of this 
legislation.
    Thank you very much.
    Mr. Radanovich. As was mentioned earlier, please feel free 
to join us on the dais for the rest of the hearing.
    [The prepared statement of Mr. Camp follows:]

Statement of The Honorable Dave Camp, a Representative in Congress from 
                   the State of Michigan, on H.R. 408

    Thank you Mr. Chairman for conducting this hearing today. I 
appreciate your Subcommittee's willingness to consider H.R. 408, a bill 
I introduced in January that would provide for the expansion of the 
Sleeping Bear Dunes National Lakeshore. This legislation represents the 
culmination of years of debate on the issue of whether, or how, to 
include certain acreage into the Park Service system. I am pleased that 
the former Director of the National Park Service (NPS), Mr. Jim 
Ridenour could be here with me to attest the significant benefits that 
H.R. 408 will deliver to Michigan residents and tourists alike.
    There are two main points that I would like to make today. One, 
this bill will help protect a pristine, globally rare, parcel of land 
from future development and enhance the scenic beauty of the Lakeshore. 
Two, all interested parties including the NPS, the current owners of 
the property, local environmental groups, and the community all support 
this legislation. I am pleased to share with the Subcommittee a 
statement of support submitted for the record by one of the local 
environmental groups, the Friends of the Crystal River, that have long 
been involved in attempts to resolve this previous land dispute. I 
would like to submit their statement for the record.
    Mr. Chairman, this legislation is simple; H.R. 408 would authorize 
the NPS to purchase 104 acres of property now owned by a private resort 
community and include it within the boundaries of the Sleeping Bear 
Dunes National Lakeshore (``Lakeshore''). The history behind the bill, 
however, is complex and deserves some explanation. I think it is 
important to briefly share with the Subcommittee how we got to the 
point we are now with the consideration of H.R. 408.
    In the mid-1980's The Homestead, a privately owned resort community 
located in Glen Arbor, Michigan, purchased property that included 
frontage on the Crystal River. The U.S. Fish and Wildlife Service 
describes this property as ``globally rare.'' Since the purchase of the 
Crystal River property, the owners of The Homestead have sought to 
build a golf course and over 30 single-family homes. The resort's 
desire to build on the pristine acreage caused concern among a number 
of community residents and local environmental groups who opposed 
development of the property.
    To resolve the dispute, The Homestead and the NPS began discussions 
to trade, or ``swap'', the environmentally sensitive riverfront 
property for acreage already included in the Lakeshore. However, 
residents and area environmental organizations soundly rejected the 
idea of a swap. Opponents of the swap idea argued that it would 
unfairly give land from one private landowner to another. Back in the 
1970's the Federal Government condemned private land and included it in 
the Lakeshore. At the time, the Federal Government indicated to the 
private landowners that the land would be protected for the public to 
enjoy. The idea of trading that land to be developed into a golf course 
and homes was not a policy local residents and environmental groups 
could endorse.
    Finally, after much negotiation and compromise, a compromise has 
been reached that aims to benefit all stakeholders. The deal is 
embodied in H.R. 408, a bill I introduced with Representative Bart 
Stupak. The legislation authorizes the Park Service to acquire 
approximately 104 acres of property currently owned by The Homestead 
resort and include it within the boundaries of the Sleeping Bear Dunes 
National Lakeshore. H.R. 408 stipulates that the purchase of this land 
be made on a ``willing seller'' basis. This stipulation was included 
intentionally to provide assurances to The Homestead that their 
property will not be taken or withheld from them for any reason without 
their express consent. The bill also prohibits the Park Service from 
acquiring the property by an exchange or ``swap''.
    At present, an independent surveyor is performing an appraisal of 
the property. It is expected that the appraised value of the land will 
be determined by the end of this month. At that time, the willing 
sellers, the owners of The Homestead, will ask the NPS to purchase the 
property. I am hopeful that the NPS will be provided the necessary 
budgetary allowances to buy the property and settle this longstanding 
dispute. Before we get to a final resolution that has eluded these 
stakeholders for years now, H.R. 408 needs the support of the 
Subcommittee. I urge you to adopt this measure and I appreciate your 
willingness to consider the merits of this important legislation. Thank 
you.
                                 ______
                                 
    Mr. Radanovich. With that we will move on to Mr. Kildee. 
Did you have an opening statement?

   STATEMENT OF THE HON. DALE E. KILDEE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Kildee. Just briefly. First of all, Mr. Camp is in the 
long bipartisan tradition of this beautiful, beautiful area of 
this Michigan Sleeping Bear Dunes National Lakeshore--I see in 
the audience former Congressman and former Senator Don Riegle, 
who was elected to the seat I hold now, in 1966 to the House 
and 1976 to the U.S. Senate. Don has played a great role in 
this.
    This has been a bipartisan concern for many, many years. 
This is an opportunity to acquire one of the most beautiful 
pristine pieces of lands. The bill is bipartisan. The people of 
Michigan are for it. We were very fearful this would be 
developed. Now we have a chance to make this part of the 
Sleeping Bear Dunes National Lakeshore. It will be a wonderful, 
pristine addition. Thank you, Mr. Chairman.
    Mr. Radanovich. Thank you, Mr. Kildee.
    Mr. Radanovich. Mr. Souder.

   STATEMENT OF THE HON. MARK E. SOUDER, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF INDIANA

    Mr. Souder. Thank you very much. As a fellow sponsor of the 
bill and one who believes we don't put enough dollars into 
preserving Midwest lands, I hope that we also pay special 
attention to this not only in authorizing but in 
appropriations. But I wanted to make a couple of additional 
comments, because I am very frustrated that the land swap 
didn't go ahead. I would like to make a couple of comments in 
the record.
    We have so few dollars, I have for the last two sessions 
tried to bump up the national parks' dollars, and we are trying 
to do it again this year. We came in at least initially under 
the President's budget. We have this big backlog in Indiana 
Dunes and National Lakeshore. We have many parcels of property 
where they authorized, but we have not been able to come up 
with the dollars from Congress to buy that land; landowners are 
sitting there holding the land, can't sell it.
    In this particular case, the arguments, in my opinion, that 
were made--and I have vacationed up in that area for 30 years, 
watched the national lakeshore develop, I have walked this 
land--I do not believe it is an accurate reflection to say that 
the land that was in question for this swap was environmentally 
sensitive land. Most of it already can be sprayed. Much of it 
is at the sign at the front, and most of the people who visit 
that national lakeshore would be astounded to learn it is 
actually national parkland anyway.
    Nobody disagrees that the Crystal River should be 
preserved. It is a beautiful area. It would be a disaster to 
build condos in that area, because there are very few places 
where you can canoe in that pristine area.
    But it is in effect false for some of the environmental 
groups to have said that this is somehow not a land swap. By 
taking the 7 million to 9 million most likely that it will cost 
to buy this, means we can't buy other land in the United 
States. Instead of buying land that may have been more valuable 
than the land that is in question here, we are now not going to 
protect other land in America or in the Midwest or in the 
Sleeping Bear Dunes National Lakeshore area. Because it is a 
zero sum game. There are only going to be so many dollars we 
have, and if we spend the dollars to buy, if we could have 
taken not valuable land for the National Park Service and 
swapped it, we add other things to either Sleeping Bear or the 
other parks in Michigan or the lakeshore. So it is still a land 
swap, it is just a different kind of land swap.
    I also have some concerns that I know for a fact that some 
of the individuals who were most objecting to the land swap 
have protected land. There were agreements when we put Sleeping 
Bear together, just like Indiana Dunes, because Sleeping Bear 
isn't as complicated as Indiana, but almost. It is not as 
urban. Some people were grandfathered in. Some of those people 
are in an area complaining, but they didn't give up their land.
    The one farm in question that the original owner of the 
land differs some from their children is definitely, as the 
Congressman from that area said, a sticky wicket, so to speak. 
There is no way, given the community opposition, that you could 
have really done anything else, and I understand that and 
respect that. But I think it is important for the record to 
show this is still a land swap; it is just different land. And 
the dollars we are necessarily going to spend here, which 
absolutely should be spent--and, in my opinion, is one of the 
only requests that will be coming from the Midwest for dollars 
for more land buying, and we ought to have it as a priority in 
our bills--nevertheless, it disappoints me that in this case we 
could not do a swap, and instead are winding up having to buy 
this rather than other land in the area that needs to be under 
protection.
    Mr. Camp. Well, I appreciate your comments. I certainly 
hope you will vacation there this summer as well. I also want 
to acknowledge Senator Riegle's support and help in trying to 
craft this compromise.
    I would ask if we could make the case in Appropriations and 
compete with the other requests that are there, but this is 
really unique in the way this lakeshore was set up. They 
condemned privately owned lands. Those descendants are still in 
the area who no longer can live on land that is theirs. Then to 
see it be transferred to another private property owner is 
unacceptable. You can see why that just would not work.
    So most national parks, as this Committee is well aware, 
were created by donations of large tracts of lands by families 
or corporations or willing sellers. This lakeshore was created 
by condemnation, with unwilling sellers. So that is why it is 
somewhat unique. And this has gone on for many years, long 
before I represented this area, and I know Bart Stupak worked 
mightily to try to resolve this as well. It looked as if the 
exchange was something that might work. When you realize the 
Federal Government would be in the position of taking from one 
person and giving to another private property owner, that is a 
problem we faced that is somewhat unique.
    Mr. Souder. The land in question was not condemned.
    Mr. Radanovich. Mark, we are running out of time here. I am 
sorry. Dave, I want to thank you. You are more than welcome to 
join us up here.
    I recognize Mr. Cardoza to speak on H.R. 1289.

 STATEMENT OF THE HON. DENNIS A. CARDOZA, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Cardoza. Thank you, Mr. Chairman.
    Mr. Chairman, I want to welcome my good friend, Carol 
Tomlinson-Keasey, and thank her in advance for her enthusiastic 
testimony on behalf of UC-Merced.
    I want to thank you, Mr. Chairman, for moving forward on 
this measure. This is an important measure, not only for my 
district, but for all people who care about maintaining our 
good resources. Your work in this area is really fantastic. I 
am pleased to have joined with you on this measure, H.R. 1289.
    The National Parks Institute as envisioned by H.R. 1289 
will provide the National Park Service a dedicated location 
from which it can train high-level facilities managers, promote 
scientific research and environmental stewardship, and develop 
sustainable resource management practice that can be shared 
worldwide.
    Currently, as the National Park Service does not have a 
facility to accommodate these diverse goals, UC-Merced's unique 
position as an emerging educational institution provides each 
partner with complimentary services for the greater good of our 
natural treasures.
    UC-Merced, as our Nation's first research university of the 
21st century, is a perfect partner to assist the National Parks 
Institute in meeting the unique challenges of the 21st century, 
from resources issues to management issues to research issues.
    The University of California system as a whole has a 
reputation across the United States as a world-class, state-of-
the-art educational system. Locating a National Parks Institute 
at the campus in Merced will allow the Park Service and its 
affiliates the opportunity to partner with the university in 
structuring a program that meets the Park Service's needs. It 
will also provide the Service with the ability to access the 
most current and credible information when deciding complex 
resource management issues which they face on a daily basis.
    But the National Parks Institute is not just about UC-
Merced and the National Park Service. Instead, I believe this 
institute will foster a much wider appreciation for our 
national parks and will help to develop a shared set of values 
focused on sustainable resource management and environmental 
stewardship.
    As a Representative from the area with some of the world's 
worst air quality, I have long been an ardent supporter of 
innovative ways to address my district's air quality dilemmas. 
As referenced in Chancellor Keasey's testimony, which I have 
had an opportunity to review, identifying the specific sources 
of contaminants and studying their interaction with our natural 
resources is a vital first step in improving air quality.
    I am grateful that the Chancellor is here today working on 
this particular research project. I look forward to the product 
of this cooperative agreement between UC-Merced and the 
National Parks Institute.
    As has always been my position, that the establishment of 
UC-Merced in California's Central Valley is essential to 
providing underserved population groups an important 
opportunity to attend a first-class educational institution, I 
support the National Parks Institute in its conception and 
because it falls in line with the educational, scientific and 
environmental goals set forth by UC-Merced's mission statement.
    Mr. Chairman, I very much appreciate, as I said before, 
your having the Chancellor here and working on this issue. I 
look forward to working with you on it.
    Mr. Radanovich. Thank you, Mr. Cardoza. I appreciate the 
opening statement.
    Mr. Radanovich. With that, we will move on to Panel 2, 
which consists of Dan Smith, the Special Assistant to the 
Director of the National Park Service here in Washington, D.C. 
Dan, good afternoon. You are here to speak on H.R. 408, H.R. 
532, and my bill, H.R. 1289. You have 5 minutes to do it, so 
get going.

  STATEMENT OF DAN SMITH, SPECIAL ASSISTANT TO THE DIRECTOR, 
            NATIONAL PARK SERVICE, WASHINGTON, D.C.

    Mr. Smith. Mr. Chairman, I will try to do that. I will 
summarize.
    Mr. Chairman, thank you for the opportunity to testify on 
H.R. 408, a bill to provide for the expansion of Sleeping Bear 
Dunes National Lakeshore to include selected acreage along the 
Crystal River. The Department supports efforts to protect 
Sleeping Bear Dunes National Lakeshore. However, in order to 
meet the President's initiative to meet the deferred 
maintenance backlog, we must continue to focus our resources on 
caring for existing areas in the National Park System. 
Therefore, we recommend deferral of this legislation during the 
108th Congress.
    Mr. Chairman, H.R. 408 would redraw the boundary of the 
71,192-acre lakeshore and include in that boundary 104.45 acres 
that encompasses interesting wetland riparian upland habitat 
along the Crystal River. The land appraisals have not been 
completed for this acquisition. However, the estimate is 
between $7 million and $9 million.
    There was an attempt to do a land exchange here. For the 
reasons that have been talked about, that was not successful, 
and thus this legislation was proposed as a solution for the 
protection of this property.
    The existing National Park System has more demands on it 
than ever before. Since 1991, 34 new units have been added to 
the system. These units alone in fiscal 2003 add $25.6 million 
to the system's operating budgets, over $30 million in unfunded 
operational needs, and over $265 million in unfunded one-time 
projects. Our focus now, though, is to take better care of the 
natural, cultural, and historic resources and visitor 
facilities already in the system, and that is why we request 
deferral.
    Mr. Chairman, that concludes my remarks on 408. I look 
forward to answering questions.
    [The prepared statement of Mr. Smith follows:]

   Statement of P. Daniel Smith, Special Assistant to the Director, 
  National Park Service, U.S. Department of the Interior, on H.R. 408

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on H.R. 408, a bill to provide for 
the expansion of Sleeping Bear Dunes National Lakeshore to include 
selected acreage along the Crystal River.
    The Department supports efforts to protect Sleeping Bear Dunes 
National Lakeshore. However, in order to meet the President's 
Initiative to eliminate the deferred maintenance backlog, we must 
continue to focus our resources on caring for existing areas in the 
National Park System (NPS). Therefore, we recommend that the Committee 
defer action on H.R. 408 during the 108th Congress.
    H.R. 408 would redraw the boundary of the 71,192.60-acre Lakeshore 
to include a parcel of land that is contiguous to the existing 
Lakeshore. The 104.45-acre parcel encompasses 6,300 feet of frontage on 
the Crystal River and contains wetland, riparian, and upland habitat 
for a variety of species within mixed northern forests. The land 
appraisals have not been completed, but the estimated cost of acquiring 
the private land is between $7-9 million dollars.
    The private landowner first proposed development, including a golf 
course and homes, on the parcel in the late 1980s. To protect the 
parcel from development, several land exchange alternatives have since 
then been considered by the NPS and interested parties. However, for a 
variety of reasons, an agreed upon exchange could not be reached. The 
interested parties wished to acquire NPS land that was not suitable for 
exchange since NPS had previously acquired it through condemnation. In 
addition, through the General Management Plan scoping process, 87 
percent of the 850 comments received expressed opposition to any type 
of exchange involving NPS lands. Comments were received from local 
entities, interested organizations, visitors, and the general public. 
This legislation was proposed as a solution for the protection of the 
property.
    The existing National Park System has more demands on it than ever 
before. Since 1991, 34 new units have been added to the System. These 
units alone in FY 2003 add $25.6 million to the System's operating 
budget, over 30 million in unfunded operational needs, and over $265 
million in unfunded one-time projects. In addition, we have expanded a 
number of units over that time period. Expansions also can bring with 
them increases in operational costs and maintenance needs. These units 
and expansions include important resources that we as Americans 
recognize as nationally significant. Our focus now though is to take 
better care of the natural, cultural, and historic resources and 
visitor facilities already in the System.
    The Department of Justice has advised that Section 1(c)(2) of the 
bill, as introduced, violates the Recommendations Clause of the 
Constitution. In addition, the Fiscal Year 2004 budget request has 
already been submitted. We recommend that this section be removed.
    Mr. Chairman, that concludes my prepared testimony. I would be 
happy to answer any questions you or the other members of the 
Subcommittee may have.
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] 88287.001
                                 

    Mr. Smith. H.R. 532, a bill to revise the boundaries of the 
golden Gate National Recreation Area and to extend the term of 
the advisory commission for the recreation area. H.R. 532 would 
facilitate a partnership effort between the State of California 
and the Federal Government to protect and make available for 
public use over 4,700 acres of coastal mountain lands south of 
San Francisco.
    We recommend that the Committee defer action on H.R. 532 
during the 108th Congress for the same reasons I just expounded 
upon for H.R. 408. The proposal at Golden Gate would entail 
approximately $15 million in Federal expenditures and unknown 
amounts of operational, maintenance and facility costs.
    H.R. 532 would also extend the Golden Gate National 
Recreation Area Advisory Commission for 10 years. The 
Department has no objection to this portion of the bill. 
However, we would at some time like to discuss with the 
Congress the whole situation of Federal advisory commissions 
and when they ever do go out of business, this will be an 
extension to carry this commission on into a 40-year time 
period, and we think that needs to be looked at as an overall 
issue.
    The Corral de Tierra property includes 4,200 acres. The 
property was acquired by the Peninsula Open Space Trust for 
$29.7 million. POST is holding the land in anticipation of 
having it included within the boundaries of Golden Gate and 
conveying it to the Park Service, and it is being looked at in 
a coordinated effort with the State. However, the land is 
currently protected because of POST's acquisition in 2001.
    The addition to Corral de Tierra also includes 461 acres of 
land known as Devil's Slide which would be conveyed from Cal-
Trans. We have concerns about that. The reason Cal-Trans is 
building a tunnel is this is a slide area, and even though, as 
some people say, it does have recreational value, the Park 
Service responsibility for keeping that open is a concern to 
us.
    The bill also has included in it 232 acres of agricultural 
lands, and we realize there are concerns about drawing a 
boundary around that land and we would work with the Committee 
to clarify any of those concerns.
    Mr. Chairman, if the Committee does expand the boundary for 
the Golden Gate recreation area, we do wish to submit a new 
reference map which we think will more clearly delineate the 
recommendations we have made in this legislation.
    [The prepared statement of Mr. Smith follows:]

   Statement of P. Daniel Smith, Special Assistant to the Director, 
  National Park Service, U.S. Department of the Interior, on H.R. 532

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on H.R. 532, a bill to revise the 
boundaries of the Golden Gate National Recreation Area (NRA) and to 
extend the term of the advisory commission for the recreation area.
    H.R. 532 would facilitate a partnership effort between the State of 
California and the Federal Government to protect and make available for 
public use over 4,700 acres of coastal mountain lands south of San 
Francisco that have exceptional natural, scenic, and recreational 
values. These lands would be an appropriate addition to Golden Gate 
NRA. However, we recommend that the Committee defer action on H.R. 532 
during the 108th Congress. The Department supported similar legislation 
last Congress but, because of the major priority the Administration has 
placed on reducing the National Park Service's backlog of deferred 
maintenance, we have been taking a closer look at proposals that could 
divert resources from that effort. This proposal would entail $15 
million in Federal land acquisition costs along with an unknown amount 
of operation, maintenance, and facility costs.
    The existing National Park System has more demands on it than ever 
before. Since 1991, 34 new units have been added to the System. These 
units alone in FY 2003 add $25.6 million to the System's operating 
budget, over 30 million in unfunded operational needs, and over $265 
million in unfunded one-time projects. In addition, we have expanded a 
number of units over that time period. Expansions also can bring with 
them increases in operational costs and maintenance needs. These units 
and expansions include important resources that we as Americans 
recognize as nationally significant. Our focus now though is to take 
better care of the natural, cultural, and historic resources and 
visitor facilities already in the System.
    H.R. 532 would also extend the Golden Gate NRA Advisory Commission 
for 10 years. The Department has no objection to this portion of the 
legislation.
    Golden Gate NRA was established in 1972 by Public Law 92-589 
``...to preserve for public use and enjoyment certain areas of Marin 
and San Francisco Counties...'' and was expanded to include lands 
within San Mateo County in 1980. Located at the center of a 
metropolitan area of more than eight million people, a major factor in 
the significance of Golden Gate NRA is its ability to provide national 
park experiences to unprecedented numbers of local, regional, national, 
and international visitors.
    H.R. 532 would expand the boundary of Golden Gate NRA to include 
lands known as the Rancho Corral de Tierra and the Devil's Slide area, 
expanding the portion of the NRA within San Mateo County. Along with 
protecting an unusually large piece of significant scenic and 
ecological resources that are linked to existing parklands, the 
addition of these properties would provide the NRA with a logical and 
understandable southern boundary.
    The Corral de Tierra property includes 4,262 acres and contains the 
headwaters and most of the watershed of the four major coastal stream 
systems, providing riparian habitat for a number of threatened and 
endangered animal species, and a scenic backdrop that visually 
distinguishes the San Mateo mid-coast region. The peaks of Montara 
Mountain rise to more than 1,800 feet just two miles from the water's 
edge, providing some of the most spectacular panoramic views to be 
found in northern California. This property was acquired by the 
Peninsula Open Space Trust (POST) in 2001 for $29.7 million. POST is 
holding the land in anticipation of having it included within the 
boundaries of Golden Gate NRA and conveying it to the National Park 
Service and/or other public land management agencies for $15 million 
from the Federal Government and $14 million from the State of 
California. The state's contribution is contingent upon a matching 
Federal contribution to the purchase.
    In addition to the Corral de Tierra property, H.R. 532 would also 
include within the boundaries of Golden Gate NRA approximately 461 
acres of land in the area known as the Devil's Slide. These lands are 
associated with plans by the California Department of Transportation 
(Caltrans) to reroute Highway 1 through a new tunnel that is to be 
constructed in the area.
    These proposed additions to the recreation area were the subject of 
a boundary study conducted by POST in May 2001, in consultation with 
National Park Service staff, which found that these properties meet the 
criteria established by the National Park Service for addition of land 
to units of the National Park System. The properties include many old 
trails and farm roads that could be easily adapted to recreational use, 
which could become the principal visitor activity within the area, and 
would provide trail links to state and county parks in the area. In 
addition, these lands would be of great value through their role in 
protecting important wildlife habitat and maintaining the integrity of 
scenic views.
    The Corral de Tierra parcels contain 232 acres of active 
agricultural land that is farmed under a lease agreement with POST. 
POST, the current agricultural tenant, and the community would like 
this activity to continue. The National Park Service would also like 
this use to remain, as we believe that the agriculture lands are part 
of the cultural landscape of this area. Section 317 of P.L. 95-625 
provides for continued use for agricultural, ranching or dairying 
purposes with respect to lands purchased for the NRA and would apply to 
the new addition.
    H.R. 532 also extends the term of the advisory commission for the 
recreation area for 10 years from the date this legislation is signed 
into law. The advisory commission was established by the same law that 
created the recreation area in 1972 and serves to provide for the free 
exchange of ideas between the National Park Service and the public. The 
30-year term for the commission expired on October 27, 2002.
    If the Committee decides to act on the boundary expansion portion 
of H.R. 532, we recommend amending H.R. 532 to substitute a new map 
reference. The new map excludes the ``Devil's Slide Tunnel 
alternative'' from the boundary. H.R. 532 as introduced excludes a 
portion of this area from the boundary, but does so through the text of 
the bill rather than by delineation on the map. We think there will be 
less confusion about the boundary over the long run if the new map 
reference is used in the legislation. This change would conform the 
language of H.R. 532 to that of S. 302, companion legislation that the 
Senate passed on April 3, 2003.
    That concludes my testimony. I would be glad to answer any 
questions that you or the members of the Subcommittee may have.
                                 ______
                                 
    Mr. Smith. The final bill, Mr. Chairman, is H.R. 1289, a 
bill to establish a National Parks Institute at the University 
of California, Merced. H.R. 1289 would authorize the Secretary 
of the Interior to establish a National Parks Institute on the 
campus of the University of California, Merced.
    Mr. Chairman, this is a very interesting bill in the 
concept that it looks at, especially to have shared funding 
between the university and the Park Service, basically a 50-50 
match. However, Mr. Chairman, I cannot present a position for 
the administration at this time, and we will try to coordinate 
and communicate that position to you as soon as possible 
following this hearing.
    That concludes my statement, Mr. Chairman. I look forward 
to answering questions on all three bills.
    [The prepared statement of Mr. Smith follows:]

   Statement of P. Daniel Smith, Special Assistant to the Director, 
  National Park Service, U.S. Department of the Interior, on H.R. 1289

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on H.R. 1289, a bill to establish a 
National Parks Institute at the University of California, Merced.
    H.R. 1289 would authorize the Secretary of the Interior to 
establish the National Parks Institute on the campus of the University 
of California at Merced. The bill provides for the institute to be 
jointly administered by the National Park Service and the University of 
California, Merced. The legislation also provides the Secretary with 
authority to enter into contracts and cooperative agreements, acquire 
or construct a facility, and accept donations from private parties and 
transfers from other Federal agencies. It calls for Federal funding for 
the institute to be matched equally with non-Federal funding.
    Mr. Chairman, we cannot present a position on this bill at this 
time. This is an important issue, and we were unable in the time before 
the hearing to develop a coordinated Administration position on the 
bill. We appreciate your efforts in introducing this legislation and 
assure you that we will communicate our position to you in writing 
shortly.
                                 ______
                                 
    Mr. Radanovich. Thank you very much, Mr. Smith.
    Let me start off with a couple of questions. One would be 
on 1289. I understand the Park Service or the Department of 
Interior did not take a position on it as of right now, I think 
in particular due to issues of training programs and what is 
offered currently by the Department of Interior and what might 
be offered through something as a Parks Institute at UC-Merced. 
I look forward to the fact that I think those are minor issues 
that can be worked out between this hearing and the markup of 
the bill, so that at least I anticipate Interior's support of 
this bill, at least by the time it gets there.
    I am sure that you will continue to work with us to try to 
achieve that by the time we get into markup.
    Mr. Smith. Mr. Chairman, I am here to make that commitment 
to you. It was because of a major program within the Department 
to look at all the human resource capital and training needs of 
how this would fit in. It looks at agreements we have all over 
the country with universities. This is such a far-reaching 
proposal, which you are aware of what this could move toward, 
and we do need some type of a look-see at what the possible 
costs would be, how actually it would operate and that type of 
thing. Between OMB and the Department, well, we were not able 
to get to that level of specificity, and we need to work on 
that in the very short future.
    Mr. Radanovich. I would look forward to working with you 
and the Department of the Interior. Thank you.
    Mrs. Christensen.
    Mrs. Christensen. Hello, again.
    Mr. Smith. Good to see you.
    Mrs. Christensen. Yes. Let's see, the question about the 
maintenance backlog, I guess that is what has been the obstacle 
to really supporting 532 and 409, am I correct?
    Mr. Smith. That is correct; and other bills, I might add, 
Mrs. Christensen.
    Mrs. Christensen. You did support the legislation, 532, 
when it was introduced in Congress last year and the 
maintenance backlog was presumably higher since we have been 
making some progress. What is the difference between last year 
and this year?
    Mr. Smith. Technically it is what has just happened in the 
past several weeks with the submission of the report on the 
Park Service accomplishments, and I imagine you read about it 
in the paper. We really are in a budget climate where the funds 
for the Park Service have to include all of our operational 
costs, have to include some land acquisition. There just is a 
push by this administration, by this President, to really 
address the backlog costs in his budget this year in the level 
of funds that he asked for for that to stay within the cap that 
Congress works at. We are just aware this also is an 
accompanying land acquisition backlog that is running parallel 
with that.
    Mrs. Christensen. Let me ask a question that has to do with 
another Committee that I serve on. To what extent is Homeland 
Security spending--because I understand the Park Service spends 
quite a bit daily when we go up to an Orange Alert--to what 
extent does that impact you? It is about $64,000 a day?
    Mr. Smith. I don't have the figures on that. It can be that 
per day when the country goes into Orange, and that is mostly 
because of the icons, such the Statue of Liberty and here in 
Washington. Those costs, as shared by other agencies of 
government in the law enforcement realm, do carry a cost to the 
Park Service, and I can get that number for you if you would 
like, Mrs. Christensen.
    Mrs. Christensen. OK.
    Mrs. Christensen. On 1289, you spoke briefly about 
relationships you have to other universities and colleges. Is 
this similar to some of those?
    Mr. Smith. There actually is in place with the University 
of California at Merced a wonderful MOU involving Yosemite, 
King's Canyon and Sequoia National Parks. This would build on 
that. But the Park Service probably has 12 to 15 interesting 
MOUs around the country to get such things as concessions help. 
We work under contract with the University of Indiana under 
contract. There are many of these kinds of arrangements around 
the country.
    This one in concept, as it has been discussed, actually is 
a further thought than what has been there before. It would 
have a research component, a training component, and really a 
very far-reaching type of National Park Service executive 
training involved. So this is really a step beyond anything 
that has been attempted before.
    Mrs. Christensen. In the MOUs that exist now, there is 
cost-sharing involved in some of them?
    Mr. Smith. Very much so, yes.
    Mrs. Christensen. I have some more time. Let me ask a 
question about 408. Would you know why 408 prohibits the use of 
an exchange or conveyance as a means of acquiring a property?
    Mr. Smith. It has been touched on today. Actually, in the 
general management planning process which we halted for other 
reasons, the public did comment rather lengthily on this, and 
it was the perception that land that had been condemned from 
another owner should not come to an owner now who would develop 
it.
    I would tell you this: I was in Sleeping Bear Dunes last 
year right about this time, saw the maps that were proposed for 
that exchange, and at the park level it was an exchange that 
would have worked very well for the National Park Service as 
far as being able to provide recreation and natural 
opportunities for the public and also let the developer do what 
he needed to do to develop the property adjacent to the 
property he already has in the sea shore. But, again, public 
comment and because of its past history of condemnation, that 
exchange failed after almost 2 years of very hard work and an 
awful lot of people.
    Mrs. Christensen. Can you describe for us the development 
proposed for this site and how it would impact the lakeshore if 
it was completed?
    Mr. Smith. As I understand it now, Mrs. Christensen, it is 
no longer a golf course. It is to do--I don't know the exact 
acres--but it is to do 25 to 30 very upscale homes, so it would 
be a residential community.
    Mrs. Christensen. And the impact on the lakeshore?
    Mr. Smith. The lakeshore, it is along Crystal River which 
empties into the lakeshore. This property is not immediately 
adjacent to the lake. I imagine in getting the permits that the 
developer has gotten, there are setbacks and that type of 
thing. The only thing could be possibly in some of the water 
quality. But I am sure the State and local environmental things 
have made sure that that has been minimized. So no huge impact, 
except this is something people would like to keep open for 
recreational use rather than development.
    Mrs. Christensen. I see my time is up. I know we are short 
of time.
    Mr. Radanovich. Mr. Souder?
    Mr. Souder. You heard the reference to Indiana University 
that Mr. Ridenour worked with, and I hope as we develop a good 
strong concept for national park training and so on, you will 
work with the existing universities that have been worked with 
for a long time. I want you to know that I have a personal 
interest in that.
    Mr. Smith. We will, very closely.
    Mr. Souder. Second, regarding the land swap question, I 
think that the point on the difference between the Crystal 
River and the lakeshore, the lakeshore is really a little bit 
misnamed in the sense it has come to encompass the Platte River 
and the Crystal River and some of the water systems that come 
into the lakeshore as well. There were two types of 
developments being argued, one over on the Crystal River, which 
is still potential if we don't purchase the land; and the 
second is what would he have done if he would have done the 
lands swap, which would have been a minimal impact on the 
lakeshore, and contrary to public opinion, you could not see it 
from the water and other things.
    Does the National Park Service--are there other places in 
the United States where you have condemned lands to add to the 
national lakeshores and recreation areas and parks?
    Mr. Smith. Yes, there are, Congressman. Having had 
knowledge of that for years, condemnation is by far the last 
way we should ever resort to, and Congress has not gone that 
way in quite a long time. The Cuyahoga National Recreation 
Area, now national park in Ohio, had condemnation. There has 
been minimal use, but it has been used on the Appalachian 
trail, and it was used on several of the lakeshores because of 
configuration.
    I would personally say condemnation should be a very last 
resort that the Congress should ever use because of the way 
people hold property dear in this country.
    Mr. Souder. But wouldn't you agree--the westerners on this 
Committee certainly would--in the case of Indiana, Dunes 
National Lakeshore where I was with Senator Coats in working 
with it, that there is a very fine line? Sometimes there is an 
absolute condemnation which tends to occur after you have a 
checkerboard pattern.
    We often in Congress endorse an area, there are private 
land holdings inside, and as they see their usage restricted, 
we would kind of have involuntary selling, and then we never 
allocate the funds with which to get the land.
    If you can't put a pizza parlor on it and you have a piece 
of Dune, like one of the cases in Indiana, whether that has 
been condemned or kind of, what, marginally condemned because 
you were part of a checkerboard, it is a fine line here.
    In other words, if we set the pattern that we are never 
going to do land swaps in the United States because something 
has been condemned or pressured into somebody, we have in 
effect restricted the ability of the Park Service long term. 
While I strongly support this legislation, because it is the 
only way to do it in reality because the public has gotten so 
whipped up about it, but we have to make it clear this is not 
an absolute precedent in any way that the National Park Service 
can't do swaps or we have really tied our ability to add 
valuable land in the future. Would you agree?
    Mr. Smith. I would agree. And land exchanges have to remain 
a tool for lands acquisition for the Park Service. It is a very 
valuable tool. This one was complicated by this condemnation 
factor, Congressman. But your statement is correct.
    Mr. Souder. Do you see that out of the administration that 
for the rest of this session and possibly into the next, the 
administration, particularly OMB, is going to oppose every 
proposal that comes up? Or would it be a quality of judgment?
    Mr. Smith. Case by case. But I have been up four times this 
year, and I have asked deferral except for every bill except 
one, and that was recently on Johnstown Flood, because a group 
that tried as a nonprofit to run a very valuable historic 
property had gone bankrupt and we felt we had to take action. 
So it is case by case, but we are trying to send a signal, it 
is very serious, that you do look at the backlog as your first 
priority at this time.
    Mr. Souder. One last thing. To reinforce Congresswoman 
Christensen's point, I chair a Subcommittee over in Government 
Reform where we do oversight, and I would like the data in 
general terms broken out on Homeland Security, because we will 
probably be doing an oversight hearing related to these 
questions of just in approximate dollars--you alluded to the 
one figure being Orange.
    What are the differences in law enforcement costs since 9/
11? And if you could also relate it, because we have also 
control over all of the narcotics, what the increasing pressure 
on the parks is. If you can't get it here, we will be asking in 
another forum where we do direct oversight and have an 
obligation to get those kinds of figures; because we, in my 
opinion, when we are looking at our national parks 
appropriations, need to somehow figure out the homeland 
security and the increasing narcotics problems, which may be 
the problems of other agencies, and what support they should be 
giving or how we should be accounting it in the appropriations 
process. Because we are not only losing ground in the backlog--
some of these spaces, these individual groups may hold them for 
a while--but there is going to be impatience of the landowners, 
like the people at the Homestead, or Golden Gate or other areas 
too, they are not going to hold it indefinitely if we don't 
take action.
    Mr. Smith. Yes.
    Mr. Radanovich. Thank you, Mr. Souder.
    Mr. Kildee?
    Mr. Kildee. I yield my time to my colleague, Mr. Camp.
    Mr. Camp. I thank the gentleman for yielding. Mr. Smith, 
part of my question I think you already answered with the 
number of deferrals. For the most part you have come to this 
Subcommittee and recommended in virtually every case but one 
that the proposal be deferred.
    I think in context, the Midwest has historically been 
underfunded in these sorts of purchases compared to other parts 
of the country. But one point I would like to make, and I would 
like to get your comment, I think it is very important that 
national parks and lakeshores be good neighbors. And having 
been representing this area for a short time, but having come 
to learn the depth of the feeling and the difficulty this issue 
has caused the community, I think there really is something to 
be said for allowing the lakeshore to remain a good neighbor, 
resolving some of the concerns and disputes that go back to the 
seventies, when this was the first lakeshore, using the process 
of condemnation of private property in the country, and the 
longstanding problems that have resulted from that. The 
community has come together, at least in some sort of fashion, 
to try to seek a resolution. And I guess I would just ask that 
that be considered as we try to move forward in resolving what 
has been a very longstanding concern.
    So I would like to work with you. If I could have your 
cooperation on that, maybe working with your great local 
manager there, Dusty Shultz, who does a super job--working 
together, maybe you can come visit and maybe join me with some 
of my meetings with local citizens to hear their concerns 
firsthand. I would certainly appreciate it.
    Mr. Smith. I appreciate that invitation. I was lucky enough 
to go up twice last year and met a lot of those constituents. 
It is a wonderful group of people, and I will report back that 
I need to get back there for this exact reason, Mr. Camp.
    Mr. Camp. We had a couple of issues last year that 
hopefully we will not be revisiting soon. This would be a 
little different approach, I hope.
    Mr. Smith. As I said, I think we can go back up with a 
little bit calmer minds. I understand things are moving along 
well in the seashore, and that GNP did need to be stopped, and 
I am glad that the Department took that action.
    Mr. Camp. Thank you.
    Thank you, Mr. Chairman.
    Mr. Radanovich. Thank you, Mr. Camp.
    Mr. Cardoza, any questions?
    Mr. Cardoza. Yes. Thank you, Mr. Chairman.
    Mr. Smith, I am somewhat disappointed that your agency has 
not taken a position of support on 1289. Are you aware that 
there are plans at the university for a Sierra Nevada Research 
Institute to study? I think it is going to be a world-class 
institution.
    Mr. Smith. Yes, there are two institutes. It is part of the 
MOU that I spoke about, Congressman, and I don't know all of 
the details, but it is a very far-reaching MOU as it stands 
now, and the Parks Institute would even be at a level above 
that.
    So, yes, I am aware of the uniqueness of this campus, where 
it is, with those three units of the National Park System so 
close by, and what has already been done on the ground by those 
professionals in that area.
    Mr. Cardoza. Is there any other type of program anywhere in 
the government that is looking at research in the Sierra 
Nevadas the way this university will in the future?
    Mr. Smith. Not to my knowledge, Congressman.
    Mr. Cardoza. OK. Yosemite in Congressman Radanovich's 
district is just a gem, truly a national treasure. I am sure 
you are as proud of it as we are. I truly believe this program 
being proposed here in this piece of legislation is really 
something that will support what we have there in the 
shepherding of that program.
    There are so many challenges we have in the Sierras and 
other forests in Northern California where we have forest 
management practices that really need to be studied. There is 
so much controversy. We dealt with the fire bill earlier this 
year. I just came back from the Klamath region where there is 
so much misunderstanding about positive forest practices and 
how we need to manage the forests, that I really, truly believe 
that this kind of program would really move forward in 
understanding what we need to do in the higher country of 
California especially.
    So I really request that you take a hard look at this and 
try and find a way to support the program.
    Mr. Smith. Again, the testimony was that we don't have a 
position at this time, but we will work to do that between OMB, 
the Department and the Park Service.
    Mr. Cardoza. I yield back. Thank you.
    Mr. Radanovich. That completes our second panel, Mr. Smith. 
Thank you very much for being here and for your valuable 
testimony.
    With that we will go ahead and move on to Panel 3. I am 
very honored to introduce Carol Tomlinson-Keasey, the 
Chancellor of the University of California at Merced, 
California, here to speak on H.R. 1289; Mr. Bill Pauli, 
President of the California Farm Bureau Federation from 
Sacramento, California, here to speak on H.R. 532; Ms. Audrey 
Rust, President of the Peninsula Open Space Trust in Menlo 
Park, California, to speak on H.R. 532; and also the Honorable 
James Ridenour, Former Director of the National Park Service, 
from Bloomington, Indiana, here to speak of H.R. 408.
    Ladies and gentlemen, welcome to the Subcommittee. We look 
forward to your testimony.
    Carol, we will begin with you. Each person will have 5 
minutes to deliver their testimony. The lights work like 
traffic lights. Green means go, yellow means speed up, and red 
means stop. Please abide by the lights, if you can, as we do 
have a full Committee markup going on just down the hall here. 
Everybody speak for 5 minutes and we will go ahead and open up 
the entire panel for questions from the dais here.
    Mr. Radanovich. Again, Carol, welcome to the Subcommittee. 
Please begin.

STATEMENT OF CAROL TOMLINSON-KEASEY, CHANCELLOR, UNIVERSITY OF 
       CALIFORNIA--MERCED, MERCED, CALIFORNIA (H.R. 1289)

    Ms. Tomlinson-Keasey. Thank you, Mr. Chairman. I am 
delighted to be here to present the university's view on H.R. 
1289, to establish a National Parks Institute at the University 
of California, Merced.
    You can understand that we are extremely enthusiastic about 
this prospect as it builds not only on the MOU that Mr. Smith 
spoke about, but it enables us to combine our research, 
teaching and public service missions. It address the issues 
faced by the national parks.
    The question has been raised already, why UC-Merced? Let me 
try and answer that first. We are part of the University of 
California, a university that has had a long and productive 
relationship helping address issues within the national parks. 
The first two directors of the National Park Service in fact 
held degrees from the University of California and looked to UC 
for research expertise.
    As has been mentioned, UC-Merced has already established 
such a relationship with three Sierra parks that began these 
kinds of research activities.
    Secondly, UC-Merced, because it is brand new, is not bound 
by existing academic structures. We can ask the critical 
questions of the 21st century, one of which clearly relates to 
protecting resources, and we can align our academic programs to 
encompass those questions. To this end, you have heard about 
the Sierra Nevada Research Institute that we have already 
established.
    A third reason for thinking about UC-Merced is the land 
grant history. This is a mission to conduct research that 
solves practical problems and we are all aware that the park 
has many complex practical problems.
    Finally, working with UC-Merced would allow the National 
Park Institute to leverage its resources, as we would expect to 
match operational resources with in-kind services. So I hope 
you can see there are lots of reasons for supporting UC-Merced 
as part of the National Parks Institute.
    Turning to the purposes of the institute, let me sketch 
briefly some of the ways in which UC-Merced could contribute. 
Training executive managers, we would propose high-level 
educational programs designed to meet the needs of the Park 
Service. We would draw on the faculty expertise of the Gallo 
School of Management and the Sierra Nevada Research Institute, 
as well as from faculty from around the UC system across the 
country and the University at Indiana.
    In addition, we would provide practical information for 
park managers, conducting community outreach, building 
consensus, even downsizing. We would build on the current 
knowledge that park managers hold in areas like conservation, 
sustainability, and restoration.
    A second purpose in the bill is to promote stewardship. As 
an initial step we would propose a national forum organized by 
UC-Merced. University researchers from around the country, 
especially those in proximity to parks, would join selected 
staff from the National Park Service to pinpoint areas of 
concern and identify the appropriate research. To me this 
initial forum would set the early agenda for the National Parks 
Institute.
    Longer-term efforts would take the form of a think-tank 
where we would have ongoing discussions to identify and resolve 
critical issues, such as the relevance of the parks to 
differing cultural groups, the source and impact of airborne 
pollutants, or the international relevance of the National Park 
Service. In all cases, the dialogs in this think-tank would be 
to ensure that many perspectives were answering the research 
questions and driving the policy recommendations.
    Finally, and perhaps where UC-Merced has its most 
expertise, is conducting research to support policy decisions. 
Let me give you three quick examples.
    Water quality. From the Everglades to the Sierra, our 
National Parks serve as repositories for water, as conduits for 
water, and as the means by which water is repeatedly renewed. 
Understanding and maintaining these functions requires the 
efforts of hydrologists, environmental engineers, chemists, 
geologists, biologists, et cetera. We promise to bring these 
researchers together.
    Climate change. Current climate change models predict a 75 
percent decrease in the snow pack in the Sierra Nevada over the 
next 30 years. In collaboration with the National Park Service, 
we are developing comprehensive snow-monitoring networks and 
models.
    Finally, air quality. Urbanization, transportation and 
industrialization all impact the air quality in our national 
parks. We need to identify the sources of contaminants, trace 
the paths by which these pollutants come to the parks, and 
evaluate their impacts on plants and animals.
    We are committed to developing these practical, 
scientifically sound and technologically sound solutions.
    Thank you Mr. Chairman. I would be delighted to take 
questions.
    Mr. Radanovich. Thank you, Chancellor Keasey. I appreciate 
your testimony.
    [The prepared statement of Ms. Keasey follows:]

         Statement of Dr. Carol Tomlinson-Keasey, Chancellor, 
             University of California, Merced, on H.R. 1289

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to present the University's view on H.R. 1289, a bill to 
establish a National Parks Institute at the University of California, 
Merced (UC Merced). We are, understandably, extremely enthusiastic 
about this prospect, as it enables us to combine the University of 
California's missions for research, teaching, and public service with a 
very real need to address some of the complex issues faced by the 
national parks.
    Perhaps the first question to be addressed when considering this 
bill is Why UC Merced? We offer the best of several worlds. We are part 
of the University of California, the world's foremost public research 
university and a university that has had a long and productive 
relationship with the National Parks. Since its founding in 1916 the 
National Park Service has been intertwined with the University of 
California. The first two directors of the National Park Service, 
Stephen Mather and Horace Albright, held degrees from the University of 
California. As directors, they continued to tap UC's research expertise 
as the Park Service developed. For example, Joseph Grinnell and his 
colleagues from UC Berkeley's Museum of Vertebrate Zoology did classic 
field studies on Sierra wildlife and natural resources. UC Merced has 
continued in this time-honored tradition and has already established a 
relationship with three Sierra parks that encompass research 
activities, outreach to students, and public service. So, we bring 
historical perspective on the parks and their evolving role.
    In addition, UC Merced, because it is brand new, is not bound by 
existing academic structures. We can ask, ``What are the critical 
questions of the 21st century?'' and we can align our academic programs 
to answer those questions. High on any list of critical questions of 
the 21st century would be how do we conserve our natural resources and 
use them efficiently, questions that mesh well with the National Parks 
Institute. To this end, UC Merced has already established the Sierra 
Nevada Research Institute to address issues like population growth, 
water and watersheds, air quality, fire ecology, biodiversity, climate 
change, transportation, resource management and policy, and public 
recreation. Among our early hires are biologists, chemists, physicists, 
environmental engineers, and social scientists, all of whom are working 
on conservation and sustainability issues.
    Establishing a National Parks Institute at UC Merced would also 
capitalize on the strength of another partner, the Lawrence Livermore 
National Laboratory. The latter's expertise in broad areas of science 
and engineering will be easily available to the National Park Service 
as we conduct water flow and water use studies, as we chart the 
direction of fire plumes in both controlled and uncontrolled fires, and 
as we examine the transportation of pollutants from urban areas to our 
national parks.
    As a campus in the University of California System, UC Merced is 
also a land grant institution with a mission of conducting research 
that solves practical problems. Working with UC Merced would allow the 
National Park Service to leverage the resources for the National Parks 
Institute, as we would expect to match operational resources with in-
kind services and other university resources. I hope you can see that 
UC Merced has much to offer as the host for the National Parks 
Institute.
    Turning to the purposes of the Institute, I would like to sketch 
briefly some of the ways in which UC Merced could contribute.
Training Executive Managers
    First, we would help build executive managers by offering 
consistent high-level educational programs designed to meet the needs 
of the Park Service. These ongoing programs would draw on the faculty 
expertise in the Ernest and Julio Gallo School of Management for 
management training. In addition, we would provide practical 
information for park managers in areas such as community outreach, 
building consensus, managing crises, downsizing, and finding critical 
expertise. Finally, we would help build knowledge in areas of 
conservation, sustainability, and restoration so managers could be more 
effective in their roles as decision makers and in communicating 
decisions to their many constituencies.
Promoting Stewardship
    To help identify issues for the National Parks Institute, we would 
propose a national forum organized by UC Merced. University researchers 
from around the country would join selected staff from the National 
Park Service in a conference to pinpoint areas of concern within the 
Parks and research that would address these concerns. This initial 
forum would set the early agenda for the National Parks Institute and 
would serve as the basis for a think tank designed to promote long-term 
stewardship of park resources. UC Merced understands and appreciates 
the National Park Service's need to evolve with the changing 
demographics and cultural interests of society. An ongoing discussion 
of evolving issues might focus on downsizing, or the relevance of the 
parks to differing cultural groups, or the source and impact of air 
born pollutants, or the international relevance of the National Park 
Service. The goal of the dialogues within the think tank would be to 
ensure that many perspectives are woven into research questions and 
policy recommendations.
Conducting Research to Support Policy Decisions
    The University of California has a long and distinguished history 
of excellence in independent, objective, scholarly research. UC Merced 
will bring the expertise of its diverse faculty, staff, and students to 
bear on issues of import to the National Parks Institute. In addition, 
we will draw on the expertise of colleagues from other universities and 
institutes to apply sound science and rigorous analysis to the problems 
facing our national parks.
    A few examples will provide some insight into the kinds of research 
that might be forthcoming.
    <bullet> LClimate change, hydrology and the western snow pack. 
Current climate change models predict a dramatic shift from snow to 
rain in the high elevation areas of the western United States. For 
California, modeling efforts indicate a 75% decrease in the snow pack 
in the Sierra Nevada mountains over the next 30 years. This change will 
have a profound effect on the use, management and sustainability of all 
western ecosystems, including the National Parks. UC Merced faculty, in 
collaboration with the National Park Service, Lawrence Livermore 
National Lab and investigators throughout the University of California 
and the western United States, are developing comprehensive snow 
monitoring networks and forecasting models. These will assist in 
developing better management models for these fragile ecosystems.
    <bullet> LAir Quality. Urbanization, transportation, and industrial 
activities have all had an impact on the air quality in our National 
Parks. We need to identify the specific sources of contaminants and air 
pollutants as the initial step in improving that air quality. We need 
to trace the paths by which these pollutants come to the National 
Parks. We need to evaluate the direct impact of particulate and 
chemical pollutants on a variety of plants and animals in the parks. 
And we need to examine the interaction of air pollutants with other 
resources, such as the snow pack and the soil, to understand the 
systemic deterioration of the park environment caused by air pollution. 
Atmospheric science and air quality research will be one of the primary 
areas of study at UC Merced and positions us to put together 
multidisciplinary teams throughout the nation to address these complex 
issues.
    <bullet> LFire Management. Each year, late summer headlines feature 
the devastation caused by wildfires. Fire suppression and timber 
management regimes often create unstable situations in our National 
Parks and forests that can quickly become an uncontrolled fire. 
Exacting research on the proper long-term management of forested lands, 
as well as research to accurately predict the direction and speed of a 
fire are critical to successful management of forested lands.
    <bullet> LWater Quality. The availability of water and the quality 
of that water are critical to all forms of life. From the Everglades to 
the Sierra, our National Parks serve as repositories for water, as 
conduits for water and as the means by which water is repeatedly 
renewed. Understanding and maintaining these functions requires the 
cooperative efforts of hydrologists, environmental engineers, chemists, 
geologists, biologists, etc. Bringing these researchers together to 
help address this important agenda would be part of the mission of UC 
Merced and the National Parks Institute.
    These examples highlight the fact that UC Merced is deeply 
committed to sustainable resource management and environmental 
stewardship. Environmental stewardship is an important theme in our 
programs in Environmental Engineering, Earth Systems Science and the 
Sierra Nevada Research Institute. Working with the National Park 
Service, we are committed to developing practical, scientifically 
sound, and technologically effective solutions to resource management 
problems.
    Mr. Chairman, I am delighted that the Secretary and Director have 
taken an interest in establishing a National Parks Institute at the 
Merced campus of the University of California. We are committed to 
embracing our colleagues in the National Park Service as important 
partners and participants in our university community. I fully 
anticipate that a National Parks Institute will provide many 
opportunities for our students and faculty to develop close working 
relationships with Institute researchers and leadership and to be 
engaged in important analyses and critical decisions framing the future 
of National Parks.
    That completes my testimony. I would be happy to answer any 
questions that you or any members of the Subcommittee may have.
                                 ______
                                 
    Mr. Radanovich. Next up is Mr. Bill Pauli, the Chairman of 
the California Farm Bureau. Bill, welcome. You are here to 
speak I believe on H.R. 532. Please begin your testimony, and, 
again, welcome.

  STATEMENT OF BILL PAULI, PRESIDENT, CALIFORNIA FARM BUREAU 
         FEDERATION, SACRAMENTO, CALIFORNIA (H.R. 532)

    Mr. Pauli. Thank you, Mr. Chairman, I am here to talk on 
532. And other members, thank you as well for the opportunity.
    Mr. Radanovich. Hey, Bill, could you pull the mike up, 
please?
    Mr. Pauli. I will turn it on. How would that help?
    Mr. Radanovich. That is even better.
    I am Bill Pauli. I am a pear and wine grape grower from 
California and I am also President of the California Farm 
Bureau, and we are pleased to have the opportunity today to 
make these few comments.
    You already have our written comments relative to H.R. 523, 
and I will gladly answer any questions on those comments, and I 
would like to request that I be able to supplement those 
comments by written comments from Mr. Jack Olson, who is a 
member of the County Farm Bureau and the manager of the County 
Farm Bureau.
    Why is the Farm Bureau involved in this land use issue? It 
is our strong view that we must protect and preserve prime 
agricultural lands for future agricultural production. The 
transfer of this important farmland to the Park Service will 
preserve open space, but it probably will not preserve 
agriculture and agricultural land for the long term.
    Why is 300 acres of farmland so important? It represents 
about 10 percent of the available farmland in the county. It is 
truly a unique resource. It is a combination of select soils 
and climates that produces crops that cannot be grown 
elsewhere. From farm workers to people that sell services to 
farmers, to truckers and processors, all of these people will 
be adversely impacted if this land is turned over to the Park 
Service. The impact to agricultural infrastructure is not being 
addressed as part of the equation and there will be long-term 
consequences of that.
    It is also an example of continued incremental conversion 
of prime agricultural land not only in this area, but 
throughout California and the West.
    Why should we care? It is easy to talk about preserving 
agricultural land, but it is much tougher to actually preserve 
those lands. Should not the current NGO have the right to sell 
their land to anyone? Again, this is some of the most 
productive agricultural land in the State. Putting this land 
inside the park boundary is the last thing we should do to 
preserve agriculture. We base this on years of experience in 
dealing with public land use issues.
    From public land grazing issues to farming on the Klamath 
Basin Refuge lands, to reaching into the areas covered by the 
Desert Protection Act, once land is included in some form of 
park boundary, the agricultural uses have to be balanced 
against other public uses. When private lands come under 
Federal agency jurisdiction, it is always agriculture who is 
last in line in the multiple-use equation.
    Lastly, funding is always a question, and we believe there 
are concerns there as well.
    We mentioned USDA programs, specifically the Farmland 
Protection Program. We potentially could access FPP through 
this bill or separate legislation. We could work together with 
the USDA to promote this approach, and, in fact, yesterday we 
met with Deputy Under Secretary for Conservation, Mark Gray, to 
talk about this issue.
    Lastly, understand that amending this legislation to access 
USDA funding would likely mean a referral to the Agriculture 
Committee. This is not an attempt to delay the legislation, but 
to find an equitable solution to ensure that this land stays in 
production agriculture for the long term.
    Again, there are several ways we can access USDA money, and 
we look forward to working with the sponsors of this 
legislation to accomplish that.
    It is our solution, we believe, to exclude some of the most 
protected agricultural lands, from the boundary of the Golden 
Gate National Recreation Area, to work collectively with USDA 
so funding under the Farmland Protection Program can be used to 
help facilitate the transfer of the land to private landowners 
who will maintain the land in agriculture.
    We ask your help in ensuring that agriculture remains a 
viable industry and an important employer in San Mateo County. 
We would gladly work with the bill's supporters and the authors 
for its timely passage once these critical issues have been 
addressed. We thank you for this opportunity to speak today and 
hope we can work collectively and positively with all in order 
to find a proactive solution to preserving and protecting this 
land.
    Thank you, Mr. Chairman and members.
    Mr. Radanovich. Thank you, Mr. Pauli, for your testimony.
    [The prepared statement of Mr. Pauli follows:]

                  Statement of Bill Pauli, President, 
             California Farm Bureau Federation, on H.R. 532

    Chairman Radanovich and members of the Committee, my name is Bill 
Pauli. I am a pear and wine grape grower from Mendocino County and I am 
the President of the California Farm Bureau Federation, the state's 
largest farm organization representing more than 37,000 farm families. 
It is an honor to be able to address this Committee regarding H.R. 532, 
a bill that would add thousands of acres to the Golden Gate National 
Recreation Area.
    I begin this statement with the Policy of the American Farm Bureau 
Federation on Land Ownership. Our policy states:
        ``We oppose further expansion of Federal land ownership, and we 
        support a national policy of no net loss of private lands.'' 
        Another statement from this policy states: ``Tax exempt 
        environmental organizations should not have access to public 
        money for funding land acquisitions. In addition, we oppose the 
        transfer of land owned by these groups to any Federal agency.''
    That statement clearly defines our objectives for land ownership 
and preserving agriculture. When you add to this, the multi-billion 
dollar backlog that the Park Service is facing for operation and 
maintenance, we could easily be asking the question, why does the 
agency need more land, especially this unique and productive resource 
when they don't have enough money to manage the land they already own?
    Of the more than 4000 acres included in this proposal, we are 
concerned about preserving agriculture on nearly 300 acres of land. You 
will note that I did not say preserving land as there is absolutely no 
threat that this land will ever be developed. Our focus is on 
preserving agriculture.
    This is the same focus we have when the California Farm Bureau 
Federation opposes urban development on productive farm and ranch 
properties, including those lands under our State's Williamson Act. 
Yes, an organization that supports property rights has opposed projects 
where landowners were attempting to exercise their ``perceived right.'' 
Others believe selling to the Park Service is their right. In both 
cases, we have sided with maintaining agriculture.
    This land has been identified by its current landowner as some of 
the richest farmland in California. But it's clear that it is coveted 
for uses which are not compatible with farming. When this legislation 
was being considered in 2001, the Park Service indicated ``The addition 
of these lands will preserve exceptional natural, scenic and recreation 
resources displaying values commensurate with or exceeding those of the 
lands currently within the boundary of the Golden Gate National 
Recreation Area.'' Regarding the future of agriculture in the area, the 
Park Service noted: ``The properties include many old trails and farm 
roads that could be easily adapted to recreational use, which may 
become the principle visitor activity within the area.''
    I am sure the Park Service will offer assurances that farming can 
continue, but, designating agricultural land a park is all but a death 
knell for farming. Farming may be allowed for a short time. After this 
bill passes, the Park Service will evaluate its objectives in managing 
the land. In balancing the needs of the public versus those of 
maintaining agriculture, agriculture rarely wins.
    The key point here is the courts or Congress can always redefine 
farming and ranching on public land regardless of what is intended in 
this Congress. By including the farmland in this boundary, you will 
ensure that farming is at best a short-term use for the land.
    We have learned from experience that the last thing you do to 
preserve agriculture is to include the land into a park boundary, as 
the goals of the Park Service are not compatible with preserving 
agriculture.
    This farmland is unique due to the area's location and climatic 
conditions and it's some of the most productive agricultural property 
in California. More importantly, it is some of the most productive land 
left in San Mateo County. The 300 acres represents roughly ten percent 
of the county's available cropland.
    As an urban county, agriculture still remains an extremely 
important industry grossing $183,148,000.00 in 2002. Agriculture is 
still the number one employer on the coastal side of San Mateo County 
including some 50 jobs tied to agricultural production on this 
property.
    This is land that is intensively farmed producing a wide variety of 
valuable crops. For example, the production of Brussels sprouts grosses 
close to $7,000 per acre annually, a valuable contribution to the local 
economy that multiplies as the product moves from the farm to the 
consumer. In addition, a critical component of the current farm 
operation is a retail farm stand that sells directly to consumers. It's 
hard to manage intense agricultural production and a produce stand 
under Park Service guidelines.
    San Mateo County is at a critical juncture. For agriculture to 
survive, there must be sufficient farming to support a viable 
infrastructure. From the people who work the fields, to those who 
provide needed production tools, to the processors, all segments of the 
local agricultural industry face an uncertain future as agricultural 
properties are being ``retired.'' Some of this is due to urban sprawl. 
Even more parcels are falling victim to habitat sprawl, where 
agricultural lands are being converted to habitat. At ten percent of 
workable cropland, this property is a critical component to maintaining 
a viable agricultural economy in San Mateo County.
Our solution
    1. LThe exclusion of some of the most productive agricultural land 
in our state (approximately 300 acres) from the boundary of the Golden 
Gate National Recreation Area.
    2. LWe could work collectively with USDA to direct funding under 
the Farmland Protection Program to help facilitate the transfer of the 
land to private landowners who will maintain the land in agriculture.
    3. LWe ask for your help in ensuring that agriculture remains a 
viable industry and important employer in San Mateo County.
    4. LWe would gladly work with the bill's supporters and the authors 
for it's timely passage, once these critical changes are included.
    The Congressional Budget Office estimated that the Park Service 
would offer to pay $15 million to acquire the 4,262 Rancho Corral de 
Tierra and over 300 acres of property on the Devil's slide area for an 
average price of $3,300 per acre. At $3,300 per acre, there is a 
commitment to work with local interests to identify potential owners 
for the land. We believe that since the land faces no threat of urban 
development, the value to acquire the land should be reflective of 
current agricultural values.
    With the amendments we have mentioned, the California Farm Bureau 
Federation is indicating its support for legislation that would add the 
4000 acres to the recreation area. This addition should satisfy the 
needs of the Park Service to expand their holdings, while also meeting 
the needs of the local agricultural economy.
    We thank you for this opportunity to speak today and we hope we can 
work together on a solution that will allow agriculture to survive in 
San Mateo County and that will ensure the future of this land will 
always be agriculture.
                                 ______
                                 
    Mr. Radanovich. Next is Ms. Audrey Rust, the President of 
Peninsula Open Space Trust, also here to speak on H.R. 532. 
Welcome to the Subcommittee. You may begin your testimony.

 STATEMENT OF AUDREY C. RUST, PRESIDENT, PENINSULA OPEN SPACE 
            TRUST, MENLO PARK, CALIFORNIA (H.R. 532)

    Ms. Rust. Thank you very much. Thank you, Mr. Chairman, 
Mrs. Christensen, members of the Subcommittee. I have also 
prepared written testimony which has been submitted and in the 
interest of time, I will not cover all of the details of the 
wonderful resource that we are talking about here, but I will 
go over a couple of matters.
    First of all, I am Audrey Rust, the president of the 
Peninsula Open Space Trust. We are a 26-year-old nonprofit 
organization operating in San Mateo and Santa Clara Counties. 
We have in that time protected over 52,000 acres of open-space 
land, included in which has been some important agricultural 
land in San Mateo County; actually some 2,000 acres. So by Mr. 
Pauli's statistics, I guess we have done two-thirds of the 
agricultural land in San Mateo County.
    I think that the Rancho Corral de Tierra property, which is 
4,262 acres, would be a stunning addition to the Golden Gate 
National Recreation Area. There could in fact be no more 
fitting southern entrance to the GGNRA than this property. As 
stated, the Rancho Corral de Tierra, ``the Corral of Earth,'' 
it rises from the ocean up 2,000 feet, and it is an amazing 
array of wildlife habitat.
    I wish that I could take each of you out there and stand 
you on the highest of the four peaks of Montara Mountain and 
give you a view that would just knock your socks off. It is an 
amazing 360-degree view across the Bay Area, across from the 
ocean to the bay, across to the mountains and the Diablo Range, 
seeing Mount Diablo, Mount Hamilton. It is an incredible view, 
an incredible spot.
    There are many rare and endangered species on the property 
and many important plant communities. Really for me it is the 
fact that here you are in a major metropolitan area, only 7 
miles from San Francisco, and here we have mountain lions 
hunting and eagles soaring. It is just quite a remarkable 
opportunity.
    It is this dramatic and beautiful wildland and the hope for 
opportunity to access it and to experience it through low 
intensity recreation that has moved so many people to support 
this bill, and that support has come in many different ways. It 
has come in letters of endorsement, in media support, and it 
has come, very importantly, in the form of money.
    We have been working on this property for 3 years. It has 
been in front of the Federal Government for two. And in that 
time period, we have arranged for $14,750,000 in private and 
State money to supplement what we hope will be the eventual 
Federal appropriation.
    I want to clarify that POST has not really protected this 
property yet. It is really a partnership activity to do so. We 
use our funds that we raise privately as working capital so 
that we can obtain properties like this in a real opportunity. 
We do a great job of negotiating, as witnessed by any 
confirmation by appraisal processor or otherwise, and then we 
are able to hold it while partnerships can be put together. 
This is one such partnership.
    What we are looking for, we have arranged for this 
$14,750,000 if the Federal Government is able to put together 
its share over a 5-year time period, knowing the difficulties 
in the appropriations process, knowing of the backlogs that 
were referred to here today, we feel that we will need the full 
5 years to obtain all of this money. So your passage of H.R. 
532 is really important to us to maintain and keep this 
partnership into the future.
    It is an extraordinary property with extraordinary views. 
It also does contain some 262 acres of agricultural lands. Let 
me say we are looking to have the boundaries moved to encompass 
this agricultural land as part of it, but we are not looking to 
move it into Federal ownership; that agricultural lands would 
be withheld and we have always planned and have been in 
negotiations with the tenant farmer on that property. In your 
packet of materials is an endorsement letter from him in which 
he endorses this approach for many reasons.
    I would be happy to take your questions, but first I want 
you to really think to take this essential step now and to 
endorse and pass H.R. 532. Thank you.
    Mr. Radanovich. Thank you, Ms. Rust.
    [The prepared statement of Ms. Rust follows:]

   Statement of Audrey C. Rust, President, Peninsula Open Space Trust

    The Peninsula Open Space Trust (POST) appreciates this opportunity 
to request your support of H.R. 532, which extends the southwest 
boundary of the Golden Gate National Recreation Area (GGNRA) to 
encompass the 4,262-acre Rancho Corral de Tierra property and some 
additional 800 acres of land located in coastal San Mateo County, 
California. The availability of this much national park quality land in 
a major metropolitan area that has seen and continues to experience 
intense urban growth represents a rare opportunity.
PENINSULA OPEN SPACE TRUST
    POST is a nonprofit land trust located in Menlo Park, California. 
POST is the owner of the 4,262-acre Rancho Corral de Tierra property 
under consideration today by House Resources Subcommittee on National 
Parks, Recreation and Public Lands. Our organization works in 
partnership with public agencies and private citizens to create parks 
and to give permanent protection to open lands in San Mateo and Santa 
Clara Counties in California. Since our founding 26 years ago, we have 
participated in saving more than 52,000 acres of wetlands, forest, 
grassland, beaches and farmland.
    POST is a land trust works to acquire land for permanent 
protection. During the time land is in POST's ownership it is not open 
to the public. With appropriate protective measures in place, POST 
transfers these lands to public or private ownership. We have partnered 
with many Federal, state, regional and local public agencies. We 
partner with private buyers when land is to be used for agriculture or 
is best suited for private stewardship.
    With the assistance of the Federal Government, POST added the 
Phleger Estate to the GGNRA as well as Bair Island and other wetlands 
to the Don Edwards San Francisco Bay National Wildlife Refuge. These 
projects have brought together Federal, state and local agencies and 
have had substantial participation by the private donor community.
SIGNIFICANCE
    H.R. 532 is a critical step in achieving a long-held goal to place 
this dramatic and strategically important property into the ownership 
of the National Park Service. The passage of H.R. 532 will make 
possible Federal ownership of the unique lands of Montara Mountain, 
creating a highly visible and spectacular southern entrance to the park 
along the Pacific coast, protecting significant ecological resources 
and linking tens of thousands of acres of existing Federal, state, and 
county parklands.
    The 4,262 acres of Rancho Corral de Tierra encompass a nearly 
intact 1839 Mexican land grant, named Corral de Tierra-Palomares. It is 
adjacent on the north and east sides to other GGNRA lands, most notably 
the 23,000-acre San Francisco Watershed lands over which the National 
Park Service holds a protective and recreational easement, and to the 
north McNee Ranch State Park (780 acres) and San Mateo County San Pedro 
Valley Park (978 acres), with further linkages to the GGNRA.
    The lands proposed for annexation offer an unparalleled scenic 
addition to the park. The rise of Montara Mountain from the sea to 
nearly 2,000 feet is a striking sight. The coastal ridge-tops provide 
one of the most spectacular panoramic views to be found in northern 
California, sweeping from the San Francisco Bay and the East Bay hills, 
past the Point Reyes peninsula and Farralone Islands to Pescadero 
Point--65 miles from north to south as the crow flies. The peaks of 
Montara Mountain dominate the setting of this part of the GGNRA and 
will dramatically define the southern limits of the park and 
``establish a clear and logical southern entrance'' as found by the San 
Mateo County Boundary Study that was submitted to the Committee in May 
2001 and re-submitted with H.R. 532 this year.
    The property contains four coastal creeks with runs of Federally-
listed threatened steelhead trout. The riparian areas serve as habitat 
for the threatened California red-legged frog and San Francisco garter 
snake, provide a vital source of water, increased cover, feeding and 
nesting opportunities and migration corridors for the abundant wildlife 
in the area. Other species of concern that inhabit the properties are 
Cooper's hawk, the dusky-footed woodrat, California brown pelican, 
common murre, and the San Bruno elfin butterfly. Bobcat, brush rabbits, 
kestrels, California quail, several species of hawk, mountain lions and 
eagles are among dozens of other wildlife species found on the 
property.
    Due to the topography, climate and natural condition of the site, 
the plant assemblages of Montara Mountain are considered by biologists 
to be genuinely unique, displaying plants, soils and exposures found 
together nowhere else on earth. Seven plants on site are included in 
the California Native Plant Society's inventory of species of 
particular concern. Two of these plants, the Montara manzanita 
(Arctostaphylos montaraensis) and Montara blue lupine (Lupinus 
eximius), are found nowhere in the world other than Montara Mountain 
and are Federally listed. Three other Federally listed rare and 
endangered plant species have been identified: coast rock cress (Arabis 
blepharophylla), San Francisco wallflower (Erysimum franciscanum) and 
Hickman's cinquefoil (Potentilla hickmanii).
    The boundary study undertaken by Peninsula Open Space Trust, and 
prepared in conjunction with the National Park Service, also found that 
acquisition of these properties will not impose a significant new 
management burden on the National Park Service. There are no buildings 
or other facilities which would require Park Service maintenance 
expenditures. Principal management requirements would include trail 
maintenance, fire management and other natural resource management 
measures already carried out in adjacent areas of the park. 
Furthermore, the proposed park expansion would benefit the recovery of 
species within the area and benefit populations existing on adjacent 
lands already within the GGNRA. Preservation of these properties will 
contribute significantly to the effectiveness of ecosystem management 
in the area, avoiding the problems that so often plague other park 
sites where important components of park ecosystems are outside of park 
control.
CULTURAL USES
    Three generations of the Lea family have been tenant farmers on 
this land. When POST assumed ownership we found that the farmers had 
been operating on six-month and one-year leases, under constant threat 
of loss of the farmland due to the fact that each of the former owners 
had development plans for the property, which would have eliminated 
agricultural operations. Until POST took over there was no possibility 
of family ownership or long-term leases for these farmers.
    At this time, I would like to register POST's unease about having 
to reveal private, landowner and tenant confidential information. Due 
to third-party concerns about plans to have these lands included within 
the boundary of the GGNRA, POST has had to make public information that 
would otherwise remain confidential between landowner and tenant.
    In 2001, POST entered into an option to purchase the 4,262 acres 
and took over management of Rancho Corral de Tierra. POST continued to 
lease farmland to the Lea family. POST has worked well with the family 
over several years on this and other agricultural property in the area.
    After taking ownership of the Rancho Corral property we entered 
into discussions with Mr. David Lea and his family regarding the sale, 
subject to conservation easements, of the 232-acre Rancho Corral farm. 
These negotiations need to be treated confidentially as they entail 
private business matters of the Lea family (Cabrillo Farms). Mr. David 
Lea, spokesperson for the family, supports the inclusion of the 
farmland in the boundaries of the GGNRA. Please find his letter of 
support for H.R. 532 attached.
    If the Lea family chooses to own this land they are obviously 
concerned that they would be able to sell it should the need arise to 
realize their investment in the property. Farming on the San Mateo 
County coast is experiencing acute financial difficulties and very few, 
if any, farmers may be interested in buying the land at the time the 
Lea family might need to sell. With the property's inclusion in the 
GGNRA, the Federal Government could become a fair market buyer should 
no farmer be available to purchase the land. The option of selling to 
the GGNRA would not be open to them if the land is not within the park 
boundary. In addition, the Lea family could also consider selling the 
land to the GGNRA while retaining a lease allowing them to continue 
their farming operation--another option not open if the land is not 
included in the boundary.
    If the Lea family does not or cannot purchase the 232-acres for 
farming, it is POST's intention to continue leasing these areas to them 
and other family farmers for as long it is viable or reasonable for the 
organization to do so. Because POST is obligated to pay property taxes 
on leased land, the instability of farming in the area, and other 
related matters, the financial ability of POST to continue to hold this 
land far into the future is questionable.
    In addition to the immediate concerns of the landowner and farmer, 
these acres by and of themselves, as indicated in the Boundary Study, 
deserve inclusion in the GGNRA if the long history of farming is no 
longer viable- as sad as that may be.
    These agricultural areas are found on four separate parcels of 
land; three parcels abut State Scenic Highway 1 and one parcel is 
tucked in the middle of Rancho Corral de Tierra in Denniston Valley. 
Three of the coastal streams mentioned earlier run through the 
agricultural areas: Denniston Creek, San Vicente Creek and Martini 
Creek, making the 232 acres long-term protection important from a 
species-of-concern perspective.
    Should the time come to move these lands into Federal ownership, 
the considerable scenic value would be assured. There are also logical 
recreational trail connections that could be realized. To remove these 
parcels from H.R. 532 would create an irregular boundary and detract 
from the rural, scenic quality of the San Mateo coast.
SUPPORT
    Inclusion of these lands in the GGNRA is endorsed by numerous 
groups and public officials. At the well-attended public hearing held 
at the beginning of this process on June 26, 2001 in Half Moon Bay, CA, 
every speaker was in favor of this addition. Elected officials, 
representatives of the San Mateo County Farm Bureau, equestrian groups, 
neighbors and environmental groups unanimously applauded the project.
    Additionally, a hearing was held on July 26, 2001 before the 
Subcommittee on National Parks of the Senate Committee on Energy and 
Natural Resources, which passed with support from the Department of 
Interior.
    The entire San Francisco Bay Area delegation including both of 
California's Senators support this effort that was nearly enacted in 
the 107th Congress. Both Houses acted on the measure but issues 
unrelated to the boundary extension intervened in the closing days of 
the session which precluded final action on the bill. POST asks that 
this legislation be enacted in this session. The Senate Energy 
Committee has already passed its legislation (S. 302) and we, as the 
landowner, hope you will do the same.
FUNDING
    This project continues to demonstrate the kind of public-private 
partnership that has led to so much success in land conservation. POST 
paid $29,750,000 for the property which it is prepared to sell to the 
Federal Government for $15,000,000 once the boundary expansion has been 
approved.
    POST has secured commitments for the needed matching funds--
$14,750,000 million from state and local private sources. The state 
funds carry the stipulation that Federal participation of $15,000,000 
be achieved within 5 years, which makes the timing of this boundary 
expansion critical.
    The state and private funds are secure. The committed State of 
California funds will come from bonds, the issuance of which is not 
threatened by the state's current budget crisis. Our local private 
commitments have been realized. We are now are looking to the Federal 
Government to realize this dynamic three-way partnership.
    In order to obtain this property at a favorable price which will 
benefit the Federal Government, POST used its ``working capital'' land 
fund as a loan to the project. Because we were able to borrow from our 
own fund, and not pay commercial interest rates, POST will be able to 
continue to hold the land through the estimated two to three more years 
it will take to achieve the appropriation needed for acquisition by the 
National Park Service. Putting so much of our capital into a project 
for so many years is a considerable cost to POST and, of course, 
prohibits us from undertaking other locally focused land conservation 
projects in our area.
CONCLUSION
    Expanding the boundary of the Golden Gate National Recreation Area 
to include Rancho Corral de Tierra through such a beneficial 
partnership is an opportunity not to be missed. A vast land within a 
major metropolitan area that offers extraordinary scenic views, a place 
with plants found nowhere else on earth, a home for rare and endangered 
animals, is available now for our protection and enjoyment. We have the 
chance to enjoy this special land and to leave a lasting legacy for our 
children and our grandchildren. Extending the boundary of the Golden 
Gate National Recreation Area to include this property is an essential 
step. Please make all of this possible by supporting H.R. 532.
                                 ______
                                 
    Mr. Radanovich. We are pleased to have the Honorable James 
Ridenour, former Director of the National Park Service, here to 
speak on H.R. 408.
    Mr. Ridenour, welcome to the Subcommittee. You may begin 
your testimony.

      STATEMENT OF HON. JAMES RIDENOUR, FORMER DIRECTOR, 
     NATIONAL PARK SERVICE, BLOOMINGTON, INDIANA (H.R. 408)

    Mr. Ridenour. Thank you very much, Mr. Chairman. It is good 
to be back visiting from Indiana. I want to start off by 
complimenting the staff member up here who has one of the most 
outstanding ties I have ever seen. I think it is unbelievable.
    I have long been an opponent of the National Park Service 
or any Federal agency acquiring additional new park areas. I 
was involved in a lot of discussions about the backlog at the 
closing of my term as National Parks Director. In fact, I have 
written a book called ``The National Parks Compromised Pork-
Barrel Politics and America's Treasures,'' in which I go to 
great lengths to talk about the importance of taking care of 
what we have rather than expanding in new park areas.
    However, as parks director, I got involved in this Michigan 
situation clear back in the late eighties and early nineties 
and tried to figure out if I could figure out some way that the 
citizens, the natural resources environmental groups and the 
owners, could all work out a compromise and be fairly treated. 
I could not reach a conclusion at that time, and so in the mid-
nineties I was hired by a citizens group to come out and see if 
I could find some way to get to a solution that would treat the 
owner fairly, that would preserve and protect this great 
stretch of river in Michigan, and that all would come out in 
some sort of a win-win situation.
    I could not find it, Mr. Chairman, and I worked very hard 
at it. I would call it a blood, sweat, and tears effort. I went 
back to Indiana only to be contacted in 2001 to see if I would 
come up and try one more time to figure out if there was not 
some sort of a way that we could make this thing work. It was 
politically disruptive, people were upset, it was a very, very 
difficult situation.
    What we have come up with I believe is the best possible 
solution, and we are not talking about creating a new park, we 
are talking about expanding an existing park. We are not 
talking about taking on a big operational responsibility. 
Essentially the land we are talking about is riverside, 
undeveloped land, that would basically be left as is. In fact, 
the National Park Service owns the land upstream of the river, 
so they would just be basically coming downstream the river 
more toward the mouth, which is into the lake itself.
    Blood, sweat and tears. I can tell you that the groups I 
have met with and the groups that are now supportive include a 
lot of strange bedfellows, but they are in the same house at 
this point; and that is that is the Sierra Club, the Michigan 
Environmental Council, the Northern Michigan Environmental 
Action Council, Trout Unlimited, Michigan United Conservation 
Club, Friends of the Cedar River, National Wildlife Federation, 
Isaac Walton League, the National Parks and Conservation 
Association, the Michigan Land Use Institute, and the list goes 
on and on.
    This, believe me, has been an extremely difficult thing to 
try to accomplish. I believe that in fairness to the owner of 
this land, a company called Bayberry Mills, I believe in 
fairness to the owner of this land, this issue needs to be 
resolved. It is written so it would work only with a willing 
seller. I need to tell you now that I have been retained by the 
owner of the land to try to work this to conclusion. So we do 
have the willing seller language in there, and we are 
restricting it to 104 acres.
    So, after many public meetings, many public hearings, 
constant, continual upheaval in the community, I can say that 
everyone back there is now saying maybe, after many, many 
years, we have got this to a conclusion and we can stop 
fighting this battle every year, with thousands of letters to 
the Congress and newspaper articles going on and on and on.
    This is a high-quality piece of land. It provides an 
exceptional backdrop for recreational users and tourism. It is 
the only example of a freshwater dune system with river in the 
United States. I believe in fairness to the owner, in fairness 
to the citizen groups who have fought so hard, you know, this 
is a piece of land that should be included within the National 
Park Service.
    There is not any disagreement about that, by the way. The 
owner himself has now said, yes, I believe that that should go 
within the National Park Service. But he cannot walk away from 
the debt he incurred when he borrowed the money to buy that 
land.
    So, in any event, that is what I have come to support, Mr. 
Chairman, and I appreciate very much the audience.
    Thank you.
    Mr. Radanovich. Thank you very much, Mr. Ridenour.
    [The prepared statement of Mr. Ridenour follows:]

 Statement of James M. Ridenour, Director, National Park Service--1989-
 1993, Director, Eppley Institute for Parks and Public Lands, Indiana 
 University--1993-2001, Retired--Part-Time Consulting on Public Lands 
                          Issues, on H.R. 408

    Mr. Chairman, members of the Subcommittee on National Parks, 
Recreation, and Public Lands-it is my pleasure to testify before you 
today. I appreciate the opportunity.
    First, let me say, as former Director of the National Park Service 
and as an interested citizen, I strongly support the authorization to 
expand the boundary of Sleeping Bear National Lakeshore to allow the 
purchase of the land along the Crystal River. This land epitomizes the 
beauty and natural character that makes Sleeping Bear Dunes and 
northern Michigan such a desirable tourist destination for people from 
all over the world.
    The land to be acquired adjoins the Lakeshore, has an area of 
approximately 105 acres and lies along both sides of the Crystal River. 
There are approximately 6,300 feet of high quality river frontage and 
other land forms that have been classified as ``globally rare'' by 
Federal resource agencies.
    Notably, the reach of the river running through this land is the 
single most visible and beautiful section of the river. It is highly 
desirable for swimming, canoeing, sightseeing and other recreational 
activities. And, it is a highly logical addition to the Lakeshore as 
the NPS owns the upstream frontage from the river's headwaters to this 
land.
    This issue of the best use of this land did not pop up overnight. 
It has been a highly debated and emotional issue for Michiganders and 
others for many years. I first became aware of the issues involving 
this land when I was Director of the NPS in the early 1990s.
    The owner of this land--a corporation known as ``Bayberry Mills''--
purchased it in 1986 with the stated intent of building a championship 
quality golf course to serve an adjoining destination resort, The 
Homestead.
    From day one, strong dissent from the environmental community arose 
over the owner's plan. Countless meetings, hearings, lawsuits, articles 
and editorials and hundreds of letters to Congress and other 
governmental agencies followed.
    In the mid-1990s I was asked by a local citizens' group to see if I 
could help resolve this issue. Alternatives were considered. An 
exchange of land between the owner and the NPS was one. A purchase by 
the NPS was another. At that time, I did not find a consensus position 
that would respect the owner's private property rights, satisfy the 
concerns of a variety of environmental groups and be acceptable to the 
National Park Service.
    Although we were unable to successfully address the issues and 
satisfy the personalities in the 1990's, I felt then as I feel now--
this land is a highly valuable community and national asset. The use of 
this land has become much more than a local issue. Elected and 
appointed leaders of the State of Michigan have become involved as have 
the U.S. Corps of Engineers, the U.S. Fish and Wildlife Service, the 
U.S. Environmental Protection Agency and the National Park Service. So, 
too, have a large number of entities--both local and national--which 
support various alternatives to the land use issue.
    Early in 2001--again, at the request of the owner and a number of 
citizens--I agreed to act as a consultant and to again try to find a 
way to break this long standing impasse.
    A dialogue ensued among the owner, the National Park Service and 
representatives of various environmental groups as to what might be 
possible. The previously considered exchange concept was revisited. 
Draft boundaries were drawn; public meetings were held; but strong 
opposition to the exchange concept erupted--both locally and 
nationally. Park support groups feared the precedent of giving up any 
NPS land.
    Rightfully so, the owner deserves a final decision as to park 
expansion on this land. The newspaper coverage on this issue has been 
voluminous; strong opinions have developed. However, there is an 
opinion that most all appear to share---that this land is a beautiful 
natural resource and there is great value in having it remain in open 
space for public enjoyment.
    The owner has agreed to consider a purchase in order to get this 
long-standing issue off the table. Environmental groups believe this 
land should be made a part of the Sleeping Bear Dunes National 
Lakeshore. The NPS Regional Office in Omaha concurs and has made this 
land the number one candidate for acquisition in the Midwest Region.
    After years of studying this area and after years of interacting 
with citizen groups, environmental groups, the National Park Service 
and the owner, I have come to the conclusion that the best course of 
action--indeed, the only prudent course of action--is to expand the 
boundaries of the Lakeshore and direct the NPS to purchase this land 
for the benefit of the public.
    I am reasonably confident that most all of the engaged parties, 
including the state, the NPS, the citizen groups, the environmental 
groups and the owner are in agreement with this conclusion and are 
anxious to draw this matter to an end. I ask you to approve H.R 408 so 
this matter might finally be resolved in the best interests of all.
                                 ______
                                 
    Mr. Radanovich. I am going to begin with a few questions to 
Ms. Keasey. I had a question regarding the Sierra Nevada 
Research Institute. As we both know, there is an institute that 
focuses on the Sierra Nevada Mountains and the research there 
is currently in place in collaboration with UC-Merced. Can you 
tell me, if a National Park Institute at Merced became a 
reality, how would this opportunity differ from the institute 
currently operating at UC-Merced?
    Ms. Tomlinson-Keasey. Well, the institute right now is 
focused primarily throughout the Sierra, so there is a lot of 
overlap with concerns in the park. But the National Park 
Institute would allow us to put together a group that would 
work very closely together on issues that are critical to the 
national parks and frame those in research terms and then have 
the research address those issues.
    Mr. Radanovich. Those would be from a national perspective. 
Do you think that any training element that might be involved 
in an institute such as this could possibly train nationally 
our park superintendents, do you believe there is a possibility 
you could go beyond that so it might become an international 
destination for training the world's future park managers?
    Ms. Tomlinson-Keasey. I would think that would be a 
wonderful goal to pursue. Initially we have a lot to do, and we 
want to do it with the National Park Service's input on all 
levels to get the executive training in. But we are constantly, 
as you know, at the parks being asked by other countries how we 
did this and what kinds of training are appropriate. So I think 
the National Park Institute would help there.
    Mr. Radanovich. Ms. Keasey, can you give me an idea where 
the institute might be housed if it were to indeed happen?
    Ms. Tomlinson-Keasey. We would like to put it on the 
campus, and then have branches as necessary in parks or in 
other places around the country to make sure we are meeting the 
needs of the National Parks Institute.
    Mr. Radanovich. One last question. You mentioned the 
changing demographics in this country and the evolving role of 
parks. Can you elaborate how the NPI might address this issue?
    Ms. Tomlinson-Keasey. Well, one of the first things we need 
to do is to diversify the folks who are working at the national 
parks, because if we have a diverse Park Service they will be 
able to have input into these questions. Having graduates from 
the University of California, Merced, many of whom will be 
underrepresented and will have internships and research 
experience in the parks, would be a step toward diversifying 
the Park Service workforce.
    Once we have that in place, it seems to me that we need to 
have this think-tank begin to address that as one of the 
central issues for the National Park Institute: What do 
different cultural groups need and demand of the national park 
when they go to visit?
    Mr. Radanovich. Thank you very much, Chancellor Keasey. I 
appreciate your answers.
    Ms. Rust, if I may ask a question, I think you have a 
microphone there--clarify a couple of things for me. It was 
mentioned there was as much as 300 acres of farmlands. I am 
hearing 232 and 216.
    Ms. Rust. The actual amount under lease at this time is 
232.
    Mr. Radanovich. 232 acres. If you can clarify what I 
thought I heard in your testimony, the POST, the organization, 
owns that property; but did you say in your testimony that you 
support that area being excluded from the land that would be 
entered into the GGNRA?
    Ms. Rust. No. I very much support that that land would be 
included within the boundaries of the park. What we would not 
be doing in the next step is transferring the land's ownership 
to park ownership at this time. We are working with the local 
farmer, and, again, this is--usually these kinds of things are 
completely confidential and we don't discuss them, but we are 
working with the local farming family to see if there is a way 
we can help them to acquire the property in their ownership.
    If the property is included within the boundaries of the 
GGNRA at some time in the future, should that farmer wish to 
sell and there not be another farming interest to buy the 
property, he would have the opportunity then to offer it for 
sale to the Federal Government. If the boundary is not there, 
then it is not a possibility.
    He also supports that view, because, as you know, you have 
to go through the boundary legislation, and that is an 
expensive and time-consuming process, as we know, and probably 
would not happen again. Therefore, we would like to see it 
included in the boundary at this time, although we do not 
anticipate any transfer of ownership of that section to the 
Federal Government.
    Mr. Radanovich. Thank you.
    Mr. Kildee, did you have any questions?
    Mr. Kildee. Thank you, Mr. Chairman.
    Mr. Ridenour, it is good to see you again. You I think 
properly described the struggle as blood, sweat and tears, 
because I have been through it for I think three different 
Governors of Michigan, many Members of Congress. I have 
succeeded in getting everyone mad at me at one time or another 
on all sides of this issue. So it is remarkable that we have 
before us the possibility of a solution which I think will meet 
the needs of the environmental groups, the owner, the 
taxpayers, and the neighbors up there. So I think we have done 
a remarkable job. It is a bipartisan endeavor also.
    So I think sometimes these things come all in conjunction, 
one with another, and very often that might not last that long, 
and I think we should strike while the iron is hot and do it 
while we have all these groups together and the conjunction of 
all these, in the past, differing views. I think this is the 
year to do it, and I really appreciate your hard work on 
bringing about this agreement.
    Thank you.
    Mr. Ridenour. Thank you very much, sir.
    Mr. Radanovich. Before I recognize the next member, I want 
to let Mr. Ridenour know my staff person is from California and 
is a very dedicated Californian. He is going to school in 
Indiana. I am going to see to it that he has a California tie 
in the future as well.
    Mr. Souder.
    Mr. Souder. I want to beat a dead horse one more round a 
little bit. And that is, that while I very much appreciate that 
we have an agreement and we need to do that, I do believe that 
I am concerned that the attitude and the precedent that this 
could set is that reasonable negotiations will be set aside if 
everybody thinks they can just buy their way out, and I 
strongly support doing this. It is the only thing the property 
owner has left, because he could build in this area. You would 
be canoeing down a wild river and all of a sudden confront all 
sorts of homes, and then go back in the wild river and then hit 
the town before you hit the mouth.
    I have canoed up in that area since I was in college, which 
was in a whole other century, actually halfway through that 
century, partly, and it is a beautiful area, and I have watched 
that battle.
    But one other thing I would like to correct on the record, 
and you as the former Director of Natural Resources know, this 
isn't much different that we had in the Indiana Dunes before 
the Sleeping Bear even started. I remember sitting in Senator 
Coats' office, even in the last rounds of expansion, which was 
much more mild than the first establishment of that park, 
because there were more people involved, more cities involved, 
whereas at least with Sleeping Bear you had smaller communities 
and farms, as opposed to that.
    These are difficult areas as we look to move into areas 
where there are more people than in some of the areas of the 
West. We have to have different types of cooperation from the 
environmental groups when we move into areas where there are 
populations about what kinds of swaps and what kind of land we 
are going to have in addition to purchases.
    I wondered if you had any additional comments based on how 
we are going to work through these things as we try to add land 
in the Indiana Dunes National Lakeshore and as other things may 
come up in the Sleeping Bear or Cuyahoga Valley, or even as you 
look at some of the areas in the Upper Peninsula as they start 
to move, where there is more population and uses. If we don't 
have a little more flexibility than having to buy the land, we 
are going to be in deep trouble in some of these places.
    Mr. Ridenour. I think that is true. One of the questions 
that comes up in my mind, and I don't know the answer to this, 
is I am not so sure what is magic about the idea that something 
might have been condemned 30 or 40 or 50 years ago. The 
government in effect owns it. At that point, it would seem to 
me, it is the government's decision as to whether, let's say, 
it became excess to the needs of a highway for example, that 
they couldn't turn around and dispose of it. I think that is 
the basis of the argument I have heard in Michigan.
    I understand the emotion of the whole situation, but I 
think you are right. I think the Park Service, to acquire 
additional lands, you know, there are going to have to be some 
trades that go on, and I think environmental groups are going 
to have to recognize that that is a possibility.
    Let's face it: The last great natural parks of this country 
have been discovered. There aren't any more Yellowstones out 
there that I know of. If those parks are not already on Federal 
lands of the Park Service, they are probably on some other 
Federal lands, like the Forest Service or something like that.
    Now, we are going to find pieces here and there that you 
fit in to fill out the picture, and certainly from an historic 
standpoint, there is going to be history made in the future, 
and that is going to mean--like the space program. We need the 
space park, whatever that might be. But, you know, the last 
great natural parks in this country have been established. I 
think the Chairman would be in agreement with that. Having 
served as director, there is a huge difference in terms of 
feelings and philosophy that go from the East Coast to the West 
Coast.
    If I lived in a State that was 80-some percent Federally 
owned, I would probably have those feelings. I live in a State 
that is less than 1 percent Federally owned and I might like to 
see something else happen. But those are legitimate arguments. 
But I think the idea of trading lands probably makes a lot of 
sense, and I am not sure I understand the complications about 
whether it was condemned 50 years ago or not. I don't know that 
I know what the difference is.
    Mr. Souder. I would like for the record, if Mr. Ridenour 
could submit some comments on what they do at Indiana 
University in reaching--and what some of the other institutes 
we have--because I have a concern about the testimony I heard 
today that when Steve Mather and Horace Albright and the early 
people in the National Park Service, they had a balance of 
usage and environmental. It was supposed to be both.
    In the testimony we heard today, I didn't see the balance. 
I saw the early hires of biologists, chemists, physicists, 
environmental engineers and social scientists. I believe that 
when they actually train people to manage parks, the National 
Park Institute, they should be focused also on the financial 
management, how you do the law enforcement, how you do 
campgrounds, how you actually do parks.
    If we are going to have a National Park Institute, those 
two things have to be balanced. The three issues that were 
raised today were all things that really don't affect a 
superintendent of a national park. The superintendent doesn't 
have anything to do with climate change, and, quite frankly, we 
are not looking for politicians who are going to lobby on 
climate change if they are going to be working at a park. We 
are looking for people who manage the park, not people who 
editorialize to us about policy.
    Air quality issues will need to be managed inside the park, 
but the goal here of the institute, if it is an environmental 
institute that wants to train people on environmental issues, 
and it is also important that the park managers and the park 
personnel would understand the impact of that outside of how to 
manage it. But the same thing with water quality. The park 
should be focused, in my opinion, on the parks, not on policy, 
which is what we are supposed to be doing. They need to 
understand that.
    But I am concerned what was outlined here was not a 
training institute for people who work in the parks, but a 
different type of thing. We need to work through with the 
Chairman's legislation to make sure that balance is there, and 
that in any National Park Institute--which, by the way, I am 
sure the Chairman agrees with what I just said there--
representing Yosemite, it is very important that we work 
through those.
    It may just be that you only covered part of it and some of 
the new things you are trying to do. But I think that is partly 
what some of the traditional training has done is to prepare 
people in how to manage a park and work in a park, and they may 
need additional supplements; because when you said times are 
changing, well, actually financial management, personnel 
management, law enforcement, how to manage wildlife when they 
are mobile in an area, those are the types of things we really 
need to try to continue to train our park managers in: very 
practical, real-life things which they may not be getting in 
traditional universities.
    Mr. Radanovich. Thank you, Mr. Souder. I look forward to 
continuing that debate with you. This is a hearing on a bill 
that would study the issue, and part of the study would be to 
develop the concept of what it might be, which most members 
here on this Subcommittee would have a chance to have a say on. 
So I welcome your viewpoints on that.
    Mr. Cardoza.
    Mr. Cardoza. Thank you, Mr. Chairman. I would like to give 
Chancellor Keasey time to answer those last questions; and also 
my question was, how is UC-Merced going to shape the program to 
best meet the needs of the Park Service?
    So, the two questions sort of come together.
    Ms. Tomlinson-Keasey. Let me respond first to the initial 
questions. We were envisioning the Gallo School of Management 
as having an important role in the executive education and 
providing some of the financial and management techniques that 
you talked about. We were also envisioning taking some of our 
curriculum guidance from the National Parks Institute and the 
National Park Service people themselves so that they could have 
a major role in identifying the issues that need to be 
addressed.
    You are quite right that up-to-date research is not 
necessarily useful unless it is translated in some way to 
respond to the needs of the park. But, on the other hand, the 
park is a reservoir of all kinds of resources that do have 
implications for the functioning of our various States.
    So, as you mentioned, we need the balance there.
    Now, if I can turn to your question, Congressman Cardoza, 
how would we shape this? If from the University of California-
Merced's points of view, having the Park Institute there would 
end up giving us guidance in what sorts of faculty we hire, 
both in the disciplinary areas as well as in areas like the 
professional schools and the School of Management. Since we are 
just now hiring those people, you can see that having the 
National Park Institute there would be very influential.
    A good analogy is Scripps Institute in San Diego. Because 
Scripps was there before San Diego started, it has continued to 
play a major role in both the way the UC-San Diego campus has 
grown, as well as the questions that the Scripps Institute 
addresses and the symbiotic relationship has worked for the 
benefit of both institutions, I believe.
    Mr. Cardoza. Thank you.
    Mr. Radanovich. Thank you. Mr. Cardoza.
    A couple of questions. Mr. Pauli, I would like to get a 
response from you. It is my impression the Federation would 
prefer that the farmed acreage be placed outside the proposed 
expanded GGNRA boundary. Can you tell me why the Federation 
feels that way?
    Mr. Pauli. Over the umpteen years that we have been 
involved through the Farm Bureau, our experience in terms of 
the Park Service and other government agencies in running 
agricultural operations on their lands has not been good, and 
we are concerned about the longer-term consequences over 5, 10, 
or 20 years in terms of the impact on that land for the 
multiple use as well as agriculture. Sometimes they are not 
compatible.
    Mr. Radanovich. Sometimes there is the school of thought 
that once that is in the boundary, that in many cases that 
begins the slow progression of the cessation of any type of 
human activity on the land sooner or later, right?
    Mr. Pauli. That is one of our main concerns, is it is not 
necessarily completely compatible with the multiple-use aspects 
of the park for which they are responsible for other aspects in 
terms of the public, in terms of trails, in terms of wildlife.
    Mr. Radanovich. I would say sometimes not even multiple use 
is in keeping with some of the objectives of Federal land 
ownership. Forgive me.
    Mr. Pauli. I agree completely with you, but I am trying to 
remain focused on this particular piece of property. That is 
our long-term concern, that it would not remain in agriculture, 
that ultimately agriculture would be sacrificed to other 
multiple uses.
    Mr. Radanovich. Ms. Rust, has the POST worked with the Farm 
Bureau Federation to address their concerns for ensuring 
historical farming on the 232 acres?
    Ms. Rust. Not exactly. We originally had the support of the 
local Farm Bureau on this, and then it was reversed without 
discussion with us, so we were not party to their thinking and 
why they changed that. But our philosophy has always been we 
are the landowner, we have always treated our tenants, 
agricultural tenants, as if there were ways for them eventually 
to become landowners. I might say that we are probably more 
well-suited than Mr. Pauli knows to know the difficulties of 
keeping land in agriculture, since that is what we do; versus 
other groups that may legislate or regulate it, we actually do 
it. We buy the land and we find ways for our farmers to 
continue to farm, using conservation easements and other 
techniques.
    In this particular case, we have extremely important 
agricultural lands. Part of the reason we acquired the property 
was to protect that land. And as we look to what are the 
options to take, what gives the most opportunity for the 
agricultural use and the very long-term uses by the park, if 
that should change, our feeling really has been that extending 
the boundary is a very important step and then later the 
ownership pattern is different.
    Some of the examples that Mr. Pauli cited in the north bay 
are really lands that the Park Service owns and then leases 
back for agricultural purposes. This is quite different. This 
would-be land-take would be owned by the farmer, should the 
farmer wish to buy it.
    Mr. Radanovich. Ms. Rust, is there a willingness on the 
part of POST--as you know, this is a hearing on this bill, 
there is going to be a lot more movement before it goes 
through--a willingness to sit down with the Farm Bureau to see 
if there is some common ground that can be found on the 
disposition of this?
    Ms. Rust. We would always talk with anyone. I doubt there 
is common ground.
    Mr. Radanovich. Thank you very much.
    Mr. Cardoza?
    Mr. Cardoza. I am curious what is grown on that 232 acres. 
They say it is unique.
    Ms. Rust. What is grown there is not unique. What is unique 
about it is the productivity of the property. Brussel sprouts, 
leeks, peas, all the common crops, some artichokes, the common 
crops of coastal San Mateo County.
    Mr. Cardoza. I hesitate to ask this, Mr. Chairman, but I am 
always curious why people don't think there can be common 
ground. I hesitate to ask the question, because usually you 
should know the answer before you ask it. I am curious as to 
why two groups that both talk about their having the same 
philosophy of promoting agricultural land can't come to common 
ground.
    Ms. Rust. Of course, I should not have said that anyway 
either, but I did. I think that the issue here for us is that 
we are looking at a bigger picture than just this 232 acres of 
agricultural lands, so what we would like to see is the entire 
boundary so that the land does not become at some point in the 
future perhaps an inholding.
    Coastal San Mateo--an undercurrent you hear from both Mr. 
Pauli and myself, is the coastal San Mateo agriculture is 
hanging on by a thread. It has had so many different things 
undermine it over the years, some of which has been lands use; 
but, more importantly, has been the global agricultural 
picture, changing markets, increasingly fewer people interested 
in agriculture, all the things that you know of that have 
happened across the country probably, but they are happening 
very acutely here in San Mateo County.
    As I look out and take a 50-year view, I want to be sure 
that this property that we are protecting in part with State 
money, hopefully with Federal money and with donor money, 
really has that opportunity for permanent protection. So what I 
want to see is that if in fact agriculture does not stay on 
this property, not because of lands use issues, not because of 
the National Park Service, but because of the economic 
conditions of agriculture in our county, that in fact it has a 
home and it would have the ability to become part of the park.
    Mr. Cardoza. One more question, Mr. Chairman, if I could. 
Can't you do that currently through perpetual easement?
    Ms. Rust. You mean protect it or move it into the park? It 
is the moving into the park that I am concerned about.
    Yes, we would do it. What we would do is sell the land to 
the farmer, subject to a very strict conservation easement, and 
we would hold that easement. The Federal Government would not 
be involved in that part. So we would be using a conservation 
easement.
    But I am saying-- well, I could talk about this quite at 
length. Mr. Lea, who is the spokesperson for Cabrillo Farms 
that farms the property, he is approximately 50 years old, he 
doesn't have a family member who he perceives wants to take 
over this land when he finishes farming.
    Just say that he does decide that he will invest his 
capital and buy this property; down the road 20 years, he wants 
to puts the property up for sale to realize his retirement 
funds back again. In 20 years will there be viable buyers for 
this property as agricultural lands? In order to increase his 
opportunity in the competitive markets to realize his money 
back again for his retirement fund, my concern is that there be 
at least a buyer for it, or more than one buyer. If there is 
only one farmer that wants to buy it, he is kind of hung out to 
dry.
    So I would like to see the Federal Government as a 
potential buyer for the property in the future, because I see 
that will encourage him to buy it now. Otherwise, he looks at 
this property and thinks maybe I just want to keep leasing it, 
because I am not sure I want to put my money in it. I would 
like to see the land in the ownership of a farmer. This 
provides us with the maximum opportunity to do that.
    Mr. Cardoza. Thank you, Mr. Chairman.
    Mr. Radanovich. Mr. Souder?
    Mr. Souder. Mr. Pauli, this just a slightly related 
question, but when the National Park Service or the government 
agencies or the different coalitions lease farmland, do 
restrictions at all--common pesticides or any other type of 
restrictions--does that ever become an issue?
    Mr. Pauli. Yes, sir, it has. You get into some of the 
sustainable questions, some of the questions related to 
sustainability and best management practices, and then you are 
in a situation where you are negotiating with the locals from 
the park or from the governmental agency. This is one of the 
problems we have, and that is why perhaps the Merced situation 
and the questions you asked are relevant. These people are very 
good in some areas and have great expertise, but not in a 
balanced approach in terms of what is necessary production 
agriculture to remain on that land. Their perception of what 
you need to have for best management practices sometimes 
conflicts greatly with what is necessary in order to have an 
economic return. I think one of the things that Ms. Rust 
pointed out is it has to be economically viable in order to 
have a buyer or have someone remain in agriculture. And in many 
cases those restrictions make it uneconomical to continue.
    Mr. Souder. Thank you.
    I earlier raised something about the Parks Institute, and I 
wondered if Mr. Ridenour could explain a little bit about what 
the Eppley Institute does with the parks and public lands now 
in teaching.
    Mr. Ridenour. I would be pleased to discuss that and talk 
with you, Mr. Chairman, and others.
    When I left here in 1993, Lawrence Rockefeller was gracious 
and provided me with $50,000 to put in the university's 
foundation. I went on the faculty at Indiana University and I 
created an institute called the Eppley Institute for Parks and 
Public Lands. I expanded the language from ``parks,'' because I 
wanted to be able to include BLM, Forest Service and other 
people who might be interested in those areas.
    We immediately began to put together training programs and 
distance satellite learning opportunities for Park Service 
employees and became involved in putting satellite dishes in 
various parks around the country so that training could be 
done. Rather than buying airplane tickets and sending everyone 
to St. Louis, we could send in the dead of winter training 
programs to Yellowstone or Alaska or wherever it might be.
    So that is a program that is ongoing. Some of it is 
research, some of it is think-tank. Most of it is hard-core, 
day-to-day training in terms of everything from teaching clerk 
typists how to fill out the forms you are supposed to use for 
travel or reporting various things to Washington.
    So we have had a nice leg up with the help of Mr. 
Rockefeller and the program has grown. It has been successful. 
I am kind of semi-retired from the university. Both of my kids 
live in California, by the way. Mr. Chairman, I might apply to 
your faculty.
    Let me put it this way: We have had a lot of experience in 
this, and as you go through your discussions, I would be glad 
to be helpful in any way I could be.
    Mr. Radanovich. All right. Any other questions?
    Ladies and gentlemen, I want to thank you very much for 
your valuable testimony today. That concludes our hearing on 
all three of these bills. Again, I appreciate your presence 
here. This hearing is adjourned.
    [Whereupon, at 2:45 p.m., the Subcommittee was adjourned.]

    [A statement submitted for the record by the San Mateo 
County Farm Bureau follows:]

           Statement of Jack Olsen, Executive Administrator, 
               San Mateo County Farm Bureau, on H.R. 532

    Chairman Radanovich and members of the Committee, my name is Jack 
Olsen. I am the Executive Administrator of the San Mateo County Farm 
Bureau. Our membership includes over 900 families--of which 275 are 
involved directly in production agriculture. It is an honor and 
privilege to represent my county farm bureau before your committee 
today regarding H.R. 532,
    When one hears about the coast of San Mateo County, we here it 
called the jewel in a crown, we hear it extolled for its pristine 
bucolic condition and the wonderful vistas with pastoral scenes, 
extolled for its sublime beauty and habitat it offers. One of the main 
reasons for this is the agricultural heritage of coastal San Mateo 
County. Many of the farmers here have roots and linkages that span a 
century or more. Our farmers are a major reason that we are a jewel and 
have such bucolic, pastoral, and pristine beauty.
    From the first introduction of this legislation to expand the 
Golden Gate National Recreation Area, we have expressed concerns over 
the future of agriculture on these lands. We are concerned about how 
inclusion within the boundaries of a recreation area may impair the 
historic and continued agricultural viability of this land. In February 
of this year the County of San Mateo held its first agricultural 
summit. Gail Raabe, San Mateo County Agricultural Commissioner, 
presented data from The Annual County Crop Reports from 1997 to 
2001which showed a staggering 40% loss of harvested acres. This, in a 
county that has some of the best and most protective agricultural 
zoning in America. Ms Raabe attributed this loss to three factors, In-
fill development in residential areas, Residential development located 
in close proximity to agricultural operations leading to ag/urban 
conflict, and lastly the most important factor, the sale of thousands 
of acres of land in the County's Planned Agricultural District to open 
space and parks. In fact to quote from the Proceedings of the San Mateo 
Agricultural Summit and show the level of concern about the transfer of 
lands to parks and open space,
    ``Some acreage has been successfully sold or leased to growers and 
ranchers, but a significant amount of grazing land and agricultural 
fields are currently not in production. Leaving land fallow and 
removing cattle from historic grazing lands can create significant land 
management problems such as the spread of invasive weeds and 
detrimental animals and non native species both plant and animal. Ms 
Raabe points out that three hundred acres of agricultural fields in San 
Mateo County are slated to be transferred into public ownership. County 
growers would like the protection of existing agricultural resources 
and operations to be part of the initial public planning process before 
a transfer takes place.'' Gail's comments were derived from a focus 
meeting with over 40 growers present and written comments received 
after a mailing to all the recognized producers in our county.
    I offer this as background for the concern we have about the state 
of agriculture in our county. Also, the California Public Resources 
Code Section #30241 states, ``The maximum amount of prime agricultural 
land shall be maintained in agricultural production to assure the 
protection of the area's agricultural economy, and conflicts shall be 
minimized between agricultural and urban land uses.'' Hence the concern 
we have about additional losses of agricultural lands. Within the 
proposal before you today, the amount of prime, or ``most productive 
agricultural land in San Mateo County...and some of the richest 
farmland in California'', as identified by the current owners in their 
description of the property, is only 300 acres out of over 4000. Our 
position and desire is to exclude the agricultural lands and find a 
means to secure placement of a suitable agricultural easement and 
transfer this land and its agricultural resources into the hands of a 
farmer to insure the continued agricultural use into perpetuity.
    The National Park Service is great at operating parks, but so are 
many men and women farmers great at maintaining and protecting 
agricultural resources. The current leaseholder has expressed his 
support of the current proposal, but we feel that this is not enough. 
This land has an agricultural use and history stretching over 100 
years. The actions of the National Park Service at this time seem to be 
more favorable and willing to work with agriculture to resolve the 
problems of the past. However, the direction and focus of the National 
Park Service can change and Congress can move ahead with other focuses 
and desires at anytime. Again, I stress control of agricultural land 
and agricultural decisions should be left in the hands of farmers. 
Farmers and the resources available within our current Farm Bill can be 
the best stewards of the land and the resources it holds.
    Another issue of concern is the loss of tax revenues to local 
service providers. Much of the time and responses from local fire and 
public safety providers are for individual coming to utilize our area 
for its scenic resources. A review of the log sheets for fire response 
actually showed that over 80% of the calls in our area where for non-
residents. Not only are safety services impacted, but also so are our 
schools, sewer districts, libraries, harbor district, and resource 
conservation district.
    Our county farm bureau is pledged to keeping the prospectus and 
future of agriculture in San Mateo County healthy and bright. Every 
inch of ag land and every farm are important to securing this goal. Our 
agriculture is a fragile economy of scale. All facets are needed to 
keep the support services and materials required to keep us forging 
ahead. The loss of a single farm can have ripple effects that are felt 
throughout our county. We have already lost our county farm supply, 
which has made it more difficult to obtain supplies and material used 
on the farms in our county. Resulting in the loss not only of materials 
but jobs as well. However, history shows, coastal agriculture in San 
Mateo County is a very adaptable and resilient creature. It has faced 
many challenges and disasters over the years and with the resilience 
shown it can overcome many obstacles.
    The background on this issue shows that the landowner paid 
$29,500,000 for this property. To date, public agencies in California 
have contributed over $14,000,000 toward the purchase of this land to 
help allow for a lowered price to the National Park Service. We feel 
that with the value of $15,000,000 that is suggested as an eventual 
price for the National Park Service to pay, that we can work with local 
interests and the Department of Agriculture to match or better the 
price and keep this land in agricultural production in perpetuity.
    As Audrey Rust mentioned at our San Mateo County Agricultural 
Summit, ``POST and agriculture are tied. There is much common interest, 
yet minor differences are seen as huge stumbling blocks. While 
preserving agricultural lands is such an emotionally charged issue, it 
is important to keep emotions from getting in the way of solving 
problems in a way everyone is capable of doing together.'' I offer this 
as a close to my comments. We have a great opportunity to create a 
plausible and lasting solution to a complex problem.
    San Mateo County Farm Bureau thanks you for the chance to offer our 
thoughts and comments. We hope that we can continue to work together 
and find a solution that suits all parties and helps to keep 
agricultural land in San Mateo County and our great country the United 
States of America viable for many years to come. Thank you.

                                   - 

</pre></body></html>
